                                                              Executive Summary
                                  Purpose of the Project: CFC-A Request for Assistance
                                  On June 12, 2005, the Commanding General (CG), Combined Forces Command-
                                  Afghanistan (CFC-A), requested the Department of Defense Inspector General’s
                                  (DoD IG) assistance to create a top-down management decision model (MDM) (see
                                  Appendix F) that can be used to conduct periodic assessments of the capability and
                                  readiness of the Afghanistan Ministry of Defense (MOD) and the Afghanistan
                                  National Army (ANA). The request included requirements that the model be
                                  expandable, reusable, and scalable.
    The Management Decision
     Model Assistance Visit       Results: Management Decision Model
       www.dodig.osd.mil          Considering the request for assistance and the proposed application of the MDM, the
                                  DoD IG Team created a “universal” model that can be used to assess the capability
                                  and capacity of any organization founded on democratic principles and the “Rule of
                                  Law.” For the purposes of this model, the definition of “organization” includes the
                                  full spectrum of organizational structures—from a nation-state to any type of
           VISION                 government-, military-, or business-related entity. Consequently, the DoD IG Team
  A professional team of          built the attached model and identified the high-level elements common to most
      outcome-oriented            organizations that should be considered to establish a viable, stable, and self-
    inspectors promoting          sustaining institution. This document, therefore, includes the Management Decision
      positive change by          Model, instructions on how to use the model, and a comprehensive description of the
 identifying opportunities        various elements embedded in the model’s architecture.
     for performance and          Background: Supporting the CFC-A MOD/ANA Study Team
efficiency improvements in
 Department programs and          On June 11, 2005, the CFC-A Deputy Commanding General established the
          operations.             MOD/ANA Study Team (see Appendix C) to conduct a joint CFC-A and
                                  MOD “health check” of the ANA, and as a result of that study, to review the
                                  Office of Military Cooperation-Afghanistan (OMC-A) and its subordinate
                                  commands. Consistent with the CG request for assistance, the DoD IG Team
                                  conducted “teach and train” sessions with the Study Team and assisted them
                                  in developing their Phase 1 and Phase 2 assessment plans. Phase 1 is a
             MISSION              “Bottom-Up” review of the ANA organization from the field to the Corps
         The Directorate of       level. Phase 2 is a “Top-Down” review of the Ministry of Defense from the
          Inspections and         headquarters level down to the Corps level. The MDM was designed to
       Evaluations conducts       support Phase 2. The IG Team and the Study Team mutually agreed to use
    objective and independent     the “DOTMLPF” 1 analysis technique (see Appendix D) to ensure that the
         customer-focused         assessment processes of Phases 1 and 2 are consistent and compatible.
    management and program        Methodology: Applying Decision Making Principles
      inspections addressing      The DoD IG Team developed a set of criteria to design the MDM
         areas of interest to     architecture and guide the development of the various sections and selection
          Congress and the        of the subordinate elements. The criteria included four considerations: (1)
     Department of Defense,       Define Strategic Context; (2) Delineate Roles; (3) Establish Processes,
        and provides timely       Systems, and Procedures; and (4) Integrate Management Actions and
            findings and          Controls. Using these decision making perspectives in combination with the
    recommendations leading       DOTMLPF analysis technique, the DoD IG Team completed the MDM with
       to positive changes in     over 660 vital high-level elements that should be considered to establish a
             programs.            viable, stable, and self-sustaining institution.
                                  Benefits of the MDM:
                                       •   Promotes cooperation and collaboration among functional managers,
                                           process owners, and decision makers;
                                       •   Encourages establishment and maintenance of a system of metrics;
                                       •   Identifies gaps and risks;
                                       •   Provides a mechanism to identify resource requirements and to articulate
                                           short-term and long-term budget priorities; and
                                       •   Presents scenarios to prioritize management and leadership actions.

1
    Doctrine, Organization Structure, Training, Material, Leadership, Personnel, Facilities.
                                                                                                                       i
                                          Executive Overview



Figure 1. MOD & ANA Capabilities Assessment Overview




                                                           ii
GENERAL INFORMATION

Forward questions or comments concerning the Management Decision Model, Kabul,
Afghanistan Assistance Visit and other activities conducted by the Inspections & Evaluations
Directorate to:

                             Inspections & Evaluations Directorate
                Office of the Deputy Inspector General for Inspections & Policy
                 Office of the Inspector General of the Department of Defense
                                     400 Army Navy Drive
                                Arlington, Virginia 22204-4704
                                  crystalfocus@dodig.osd.mil

An overview of the Inspector General of the Department of Defense mission and organizational
structure is available at http://www.dodig.osd.mil.




TO REPORT FRAUD, WASTE, AND ABUSE

Contact the OIG DoD Hotline by telephone at (800) 424-9098, by e-mail at hotline@dodig.mil
or in writing:

                                      Defense Hotline
                                       The Pentagon
                                Washington, D.C. 20301-1900




                                                                                               iii
                                                        Table of Contents

Executive Summary                                                i
Executive Overview (Figure 1)                                    ii
Introduction                                                     2
Chapter 1—Doctrine                                               8
Chapter 2—Organization/Structure                                 10
Chapter 3—Training                                               12
Chapter 4—Material                                               14
Chapter 5—Leadership                                             16
Chapter 6—Personnel                                              18
Chapter 7—Facilities                                             20
Chapter 8—Resource Management                                    22
Chapter 9—Intelligence                                           24
Chapter 10—Medical                                               25
Chapter 11—Education                                             27
Chapter 12—Transportation                                        28
Appendix A—CFC-A Commanding General Request Letter               29
Appendix B—DoD IG Team Afghanistan                               30
Appendix C—CFC-A Deputy Commanding General Terms of Reference    31
Appendix D—DOTMLPF ‘Plus’ Definitions                            35
Appendix E—Common Terms                                          37
Appendix F—Management Decision Model                             38
Appendix G—Instructions                                          51
Appendix H—Management Decision Model Briefing                    60
Appendix I—Stakeholders                                          67




                                                                        1
                                                                             Introduction




“So what is a well-made decision? It is timely, clear, made at the lowest possible level,
supported, implemented, evaluated appropriately, and made utilizing lessons from previous
decisions.” –The Outlook Quarterly Newsletter, October 2003

Purpose of the Project: CFC-A Request for Assistance

On June 12, 2005, the Commanding General (CG), Combined Forces Command-Afghanistan
(CFC-A), asked the visiting in-country Department of Defense Inspector General (DoD IG)
team (the Team) to assist his staff in their internal assessment of the Afghanistan Ministry of
Defense and the Afghanistan National Army. He further codified his request in a June 26,
2005, memo (see Appendix A) and is summarized below:

   •    Create a “Management Decision Model (MDM) for a ‘Health Check’ of Afghanistan
        Ministry of Defense (MOD) and the Afghan National Army (ANA).”
   •    Develop “a systemic approach to monitoring and managing critical activities …
        required to achieve desired levels of organizational effectiveness and readiness in the
        MOD and the ANA.”

As further described in the CG memo, the Management Decision Model should:

   •    Establish a baseline architecture that is expandable, reusable, and scalable;
   •    Develop a top-down map of high-level elements; and
   •    Be adaptable to existing software applications, for example, Microsoft Word and
        Excel.

Ensuing discussions with the CFC-A Deputy CG and Chief of Staff clarified the Team’s
capabilities and further defined the scope of the request and the deliverable product.

DoD IG Inspections and Evaluations Directorate—Team’s Capabilities

       “The Directorate of Inspections and Evaluations conducts objective and
       independent customer-focused management and program inspections addressing
       areas of interest to Congress and the Department of Defense, and provides timely
       findings and recommendations leading to positive changes in programs.”
       DoD IG I&E Strategic Plan, 2004

The six people on the Team (see Appendix B) are members of the Inspections and
Evaluations (I&E) Directorate. The I&E Directorate specializes in business consulting

                                                                                              2
services and provides clients the benefits of an independent and objective perspective for
systemic problem solving and process improvements. In accordance with the Inspector
General Act of 1978, as amended (see http://www.ignet.gov/ ), the DoD IG conducts a
transparent process to foster public confidence in the management of the Department of
Defense organizations.

Deliverable Product

This document includes the requested Management Decision Model and the accompanying
documentation that describes the model and its application. The Team created the
Management Decision Model while in Kabul, Afghanistan, from June 7 through July 7,
2005. Although CFC-A intends to use this model to facilitate its “health check” of the MOD
and ANA, the model was designed to provide managers and decision makers a management
technique to conduct assessments and track progress of any type of organization. The Team
identified the high-level elements common to most organizations that should be considered to
establish a stable, viable, and self-sustaining institution. The model incorporates basic
organizational theory and management decision principles.

Background

As stated in CFC-A June 11, 2005, “Terms of Reference” document (see Appendix C), the
CFC-A Deputy Commanding General is conducting an assessment of the Ministry of
Defense and the Afghanistan National Army.

      The US Government has made a substantial investment into the training of the
      Afghan National Army (ANA) over the past 3 years and there has been much
      progress made. The Commanding General Combined Forces Command-
      Afghanistan (CG CFC-A) has discussed with the Minister of Defense (MOD) the
      desirability of conducting a joint ‘health check’ of the ANA, and as a result of
      that study, to review the Office of Military Cooperation-Afghanistan (OMC-A)
      and its subordinate commands. . . .

      The study scope is to examine all levels of command of the ANA, from the MOD
      down to Kandak [ANA Battalion] level to ascertain the ‘ground truth’ on the
      state of training, morale, administration, procurement, logistics, and leadership of
      the Army at each level of command, and to make recommendations based on the
      findings. Armed with those indicators the study team will then examine the role,
      manning, leadership, planning, training, and logistic support delivered by OMC-
      A and its subordinate commands, and again make recommendations. . . .

—CFC-A Study Team Plan. To accomplish this task, the CFC-A Study Team
organized its assessment approach into two phases:

        Phase 1: Conduct a bottom-up review of the ANA organization from the field
to the Corps level. This review will render a tactical perspective suggesting a set of
recommendations that will affect field operations.



                                                                                             3
        Phase 2: Conduct a top-down review of the MOD from the headquarters to the
Corps level. This review will render a strategic perspective on the health of MOD as it
transforms and progresses toward a stable, viable, and self-sustaining institution.

—Role of the DoD IG Team. The Team assisted the CFC-A Study Team in several
ways:

       •   Teach and Train. The Team provided a consulting and mentoring service
           to assist the Study Team in its development of an assessment design plan.
           The Team engaged in several “teach and train” sessions with the CFC-A
           Study Team and provided guidance on developing its game plans and
           assessment procedures.

       •   Establish an Assessment Framework. To provide a common assessment
           framework to ensure Phases 1 and 2 of the study are consistent and
           compatible, the Team recommended the DOTMLPF rubric. For the
           purposes of this effort, the Team modified the definitions of DOTMLPF.
           See Appendix D for definitions.

              o   D―Doctrine
              o   O―Organization/Structure
              o   T—Training
              o   M―Material
              o   L―Leadership
              o   P―Personnel
              o   F―Facilities

       •   Create the Management Decision Model. As requested, the Team
           designed a model that can be applied as an assessment template for Phase 2.

Methodology

Research. The Team first conducted research to become familiar with the environment and
information bearing on the project. With cooperation from the CFC-A and MOD staffs,
research activities included:
       • GAO Draft Report (GAO-05-575), “Afghanistan Security—Efforts to Establish
           Army and Police Have Made Progress but Future Plans Need to be Better
           Defined,” May 2005 and the OCM-A Draft Management Comments,
       • Conferences and interviews with CFC-A and MOD leaders and staff members,
       • CFC-A staff documents,
       • MOD Inspector General Reports, and
       • Various Web sites and Internet sources.

Adaptation of DOTMLPF. As previously discussed, the Team selected the DOTMLPF
technique (see Appendix D) to provide a common framework for examining processes and
systems. Although originally designed for the acquisition process, the Team determined that
the technique could be used to examine organizational structure. However, using the
DOTMLPF technique presented a number of limitations. For example, the most significant
                                                                                          4
limitation is the technique does not include all functional activities that are generally
practiced in a typical organization. Because of this limitation, the Team coined the
DOTMLPF “Plus” technique, which allows additional elements, functions, and activities to
be added to the model’s map. For the purposes of the MDM, the Team added several “Plus”
elements as examples of how the user can expand the model. Other limitations are the
definitions of the DOTMLPF terms. Consequently, the Team modified the definitions to suit
the purposes of this project and to establish common frames of reference.

Application of Decision Making Principles. In addition to adapting the DOTMLPF
technique for designing the model’s architecture, the Team developed a set of steps to guide
our thinking and discussions to ensure we maintained a decision maker’s perspective. The
graphic and narratives below describe the underlying philosophies and principles that were
used to build the MDM.
                                                             Decision Making

                                                                DRIVERS OF SUCCESS
                                                                        IN
                                                                 DECISION MAKING
      "The best executives don't make
      very many decisions. They
      concentrate on what's important                            STRATEG IC
                                                                  CONTEXT
      and delegate the rest." Winning
                                                                        LEADERSHI P
      Decisions: Getting it Right the
      First Time by J. Edward Russo                                             ROLES


      and Paul Shoemaker                                                        PROCESS /SYSTEMS/ PROCEDURES

                                                                                                            7  7
                                                                                        MANAG EMENT AND CONTROLS




              Step 1: Define Strategic Context. Without clear organizational goals,
              strategies, priorities, and risk profiles, decision making below the top
              leadership levels of the organization cannot be consistent and cannot be
              effectively distributed at the lower levels. Strategic context provides a
              compass for decision makers throughout the organization and enables
              decisions to be made based on consistent criteria, regardless of who is making
              the decisions. Strategic context includes strategy, objectives, accountability,
              key stakeholders, priorities, constraints, and evaluation criteria. The MDM
              architecture includes these elements.

              The best leaders focus on creating strategy, developing the “decision making
              system,” and making only the critical decisions or resolving exceptions.
              Micromanagement by executives is often driven by fear, not superior ability.
              The consequences of senior leaders too involved in decision making include
              delayed decisions, lost productivity, underutilization of middle management
              resources, employee frustration, and inadequate leadership focus on their most
              critical responsibilities. The MDM delineates how to delegate decisions.



                                                                                                          5
              Step 2: Delineate Roles. The most critical person in the decision making
              process is the “executive owner” who is accountable for building the decision
              making system, measuring its success, and improving it over time.
              Presumably, in this instance, the Commanding General, CFC-A and the
              Minister of Defense are the “coexecutive owners” of the MDM. Applying the
              model will require the various process owners, functional managers, leaders,
              and supervisors of both organizations to extract the appropriate sections of the
              model and further expand the top-down mapping of the elements, as required.

              Step 3: Establish Processes, Systems, and Procedures. The most
              commonly neglected, but important, steps in the decision making process are
              the activities at the very beginning and the very end. The MDM attempts to
              reflect the CFC-A Phase 1 and Phase 2 construct, and provides the Phase 2
              critical steps to map out a process that is actionable, reusable, and sustainable.
              Finally, if communication requirements are not explicit at every stage, input
              will be sought inappropriately or inconsistently, critical personnel will be
              informed sporadically or incompletely, and, as a result, decisions will later be
              revisited or overturned causing needless delays in progressing to the end state.

              Step 4: Integrate Management Actions and Controls. Inherent in any
              enterprise is the need for efficient and effective management practices. The
              leadership sets the strategic context. Managers, however, get the work done
              by prioritizing and allocating resources―time, money, equipment, and people.
              The model, therefore, emphasizes primary management functions—planning,
              programming, and budgeting. Moreover, management needs internal control
              procedures to measure performance and track trends.

Management Decision Model

Assumptions. To frame the development process of the model and to ensure a unified
philosophy for “group think” discussions, the Team listed three assumptions.

   •   The model should be applied to democratic institutions that practice the “Rule of
       Law.”
   •   The model should be easy to use without relying on computer systems. (Note: The
       Team is aware of commercial off-the-shelf computer applications that would
       efficiently manage the model and facilitate modifications and refinements, that is,
       drill down excursions.)
   •   Functional managers, process owners, and subject matter experts will expand the
       model to lower levels of detail.

Results. The MDM consists of 660 elements and is tabulated at Appendix F. Chapters 1
through 12 describe each primary, or Level 1 element. In each chapter, italicized words are
used to indicate a reference to one of the established elements of the MDM. Capitalized
italicized words indicate reference to Level 1 elements. The instructions for applying the
model are at Appendix G.


                                                                                               6
Benefits of the MDM:

   •   Promotes cooperation and collaboration among functional managers, process owners,
       and decision makers;
   •   Encourages establishment and maintenance of a system of metrics;
   •   Identifies gaps and risks;
   •   Provides a mechanism to identify resource requirements and to articulate short-term
       and long-term budget priorities; and
   •   Presents scenarios to prioritize management and leadership actions.




                                                                                         7
                                                                   Chapter 1—Doctrine

Purpose: To map out the key high-level Doctrine elements that should be considered in
establishing a stable, viable, and self-sustaining Doctrine capability for a typical
organization.
Assumptions: This model draws several assumptions from the U.S. Army Doctrine.
Specifically, we assumed the main elements are authority, statutory oversight, strategic plan,
and policy.
   •   As the subject matter experts drill down into the model, certain aspects of Doctrine
       may not apply to all organizations due to peculiar or unique circumstances.
   •   All modifications to the model should be coordinated with and approved by the
       Office of Primary Responsibility so that appropriate adjustments can be made to
       accommodate aggregation and roll-up calculations.
Definitions: Doctrine is the fundamental principle that guides the operations and functions
of the organization toward common goals and objectives. Doctrine includes documents that
formalize the organization’s strategy, policy, and procedures to codify authority and roles
and responsibilities—it’s a library of documents that shapes the work environment and
organizational culture. Doctrine provides the strategic context and linkage between the top
levels of the organization and the tactics, techniques, and procedures required at the
operational levels. It provides a shared way of thinking about organization problems, but
does not direct how the organization will solve problems.
Organizations may share Doctrine among nations and other organizations. In addition,
nations may share Doctrine among several nations.
In general, doctrinal documents state:
          •   an organization’s objectives,
          •   the general objectives of the organization (“who we are”),
          •   general concepts of how this organization performs its mission (“what we do”),
          •   concerns and cautions in carrying out this mission (“how we should do it”), and
          •   historical examples (“how we did it in the past”).
See Appendix E for definitions of common terms. Listed below are the definitions of terms
unique to this section of the model:
          •   Executive Authority: Authority assigned to an entity, person, group, or
              function, as prescribed and legitimized by higher authority. Authority
              exercised by top-level executives of an organization. Executive authority gives
              that entity the authority to issue legally binding decrees known as executive
              orders.
          •   Legislative Authority: Authority derived from laws and statutes as promulgated
              by a representative body such as a congressional or parliamentary body.


                                                                                              8
          •   Judicial Authority: Laws, regulations, policies, and procedures established by a
              legal system to govern organizational activities within the limitations of the
              “Rule of Law.”
          •   International Treaties: Provides the organization a basis for entering into
              international agreements with other nation-states.
          •   Inter/Intra Agency Authority: Provides the organization the basis for decision
              making which affects multiple agencies or departments in and out of the
              organization.
          •   Internal Control: Procedures or systems designed to promote efficiency and
              ensure the implementation of policy while safeguarding assets and avoiding
              fraud, mismanagement, and errors.
          •   Inspector General System: An agency or collection of agencies mandated by
              law to prevent fraud, waste, abuse, and mismanagement. A system based on
              the U.S. Government model to assist leaders and managers identify problems
              and improve efficiency and effectiveness.
          •   Anticorruption Process: Network of law enforcement legislation that will
              promote a transparent and accountable organization.
Description: The development of Doctrine is a process that continues throughout the
growth of an organization. As new polices and circumstances develop, so will the need for
appropriate doctrine. The goal of the doctrine section of the model is to develop foundations
for creating effective authority, statutory oversight, strategic plans, and policy.
The first element of the MDM is authority. Authority includes basic items that an
organization should consider when under development, such as executive, legislative, and
judicial authorities; international treaties; and inter/intra agency authority.
Executive authority gives the head of state/organization the authority to make executive
decisions. Legislative authority provides the organization authority to exist and perform
duties within stated laws and statues. Judicial authority provides the laws and regulations
that an organization must follow while performing its duties.
The second element in the model under doctrine is statutory oversight. Statutory oversight
establishes the requirement for systems such as an Inspector General system and
anticorruption process.
The third element in the model under doctrine is strategic plan. The strategic plan is a long-
term blue print or road map that incorporates the organization’s vision, mission, core values,
objectives, goals, performance metrics, assumptions, and constraints.
Policy Doctrine creates a strategy for issues including, but not limited to, education, training,
social services, environmental, and legal issues.
Summary: A comprehensive Doctrine program is critical to the success of any organization.
Doctrine provides the boundaries of an organization’s behavior and establishes a means of
achieving the organization’s goals and objectives. Specifically, the doctrine system
prescribes the strategic context, authorities, roles and responsibilities, rules of law, and
limitations to govern how the organization accomplishes its core business and mission.


                                                                                                 9
Chapter 2—Organization/Structure

Purpose: To map out the key high-level Organizational/Structure elements that should be
considered in establishing a stable, viable, and self-sustaining Organization/Structure
capability for a typical organization.
Assumptions: The Organization/Structure section of the Management Decision Model
draws information from Organizational Theory: Determinants of Structure by Stephen P.
Borgatti, 2 and Organizational Design and Faculty of Information Studies, University of
Toronto. 3
       •   As subject matter experts drill down into the model, certain aspects of
           Organization/Structure may not apply due to peculiar or unique circumstances.
       •   All modifications to the model should be coordinated with and approved by the
           Office of Primary Responsibility so that appropriate adjustments can be made to
           accommodate aggregation and roll-up calculations.
Definitions: Organization/Structure includes the division of authority, roles, and
responsibilities and defines the functionality of subordinate elements within the organization.
See Appendix E for definitions of common terms. Listed below are definitions of terms
unique to this section of the model:
       •   Authority: A public agency or corporation with administrative powers in a specified
           field. Legal and rational authority depends on formal rules, usually written down and
           often complex. The term legitimacy is used when describing a system of
           government, whereas authority refers to a specific position in government.
       •   Organizational Culture: Refers to the values, beliefs, and customs of an
           organization.
Description: The model starts with the authority element. Legitimate authority for a
formal organization is through executive, legislative, or constitutional law.
The roles and responsibilities of an organization should be evaluated by the presence of
clearly defined guidelines for span of control, chain of command/authority, or accountability.
The composition of an organization should consist of a proportionate representation of all
ranks. An organization should not be overly staffed by senior managers without a
proportionate representation of the work force. Additionally, organizational composition
should be diverse in order to reflect a proportionate representation of gender and ethnic
composition of the population.
The functionality of an organization is broken down by evaluating the organizational culture,
mission accomplishment, and measures of performance. Organizational culture should be
appropriate, adaptable, and flexible to changes in society and culture. Mission
accomplishment should be effective, efficient, and completed in a timely manner.
Performance measures must have established standards, methods of assessment, recording,
and proper reporting.

2
    Organizational Theory: Determinants of Structure http://www.analytictech.com/mb021/orgtheory.htm.
3
     Organizational Design, http://choo.fis.utoronto.ca/FIS/Courses/LIS1230/LIS1230sharma/od1.htm.

                                                                                                        10
External support for an organization is divided into foreign and domestic. An assessment of
organizational support will require evaluating reliability, criticality, and mission impact of
supplies or funding provided by foreign or domestic sources.
Summary: Clearly delineated Organization/Structure is critical to the institution’s success.
How the organization is structured is directly linked to how an organization accomplishes its
strategic vision and mission. Organizational structure facilitates the development of a stable,
viable, and self-sustaining institution.




                                                                                             11
                                                                    Chapter 3—Training


Purpose: To map out the key high-level Training elements that should be considered in
establishing a stable, viable, and self-sustaining Training capability for a typical
organization.
Assumptions: The Training section of the Management Decision Model draws from the
U.S. Army training goal to “develop a combat-ready force that is physically and
psychologically prepared to mobilize, deploy, fight, and win wars and conduct peacekeeping
operations anywhere in the world as part of a joint, combined, or interagency force” and to
“ensure its units, organizations, soldiers, and leaders are trained to accomplish their missions
and supporting tasks.” 4 Numerous nonmilitary examples substantiate the need for a quality
organizational training program.
      •    As the subject matter expert drills down into the model, certain aspects of Training
           may not apply to all organizations due to peculiar or unique circumstances.
      •    All modifications to the model should be coordinated with and approved by the
           Office of Primary Responsibility so that appropriate adjustments can be made to
           accommodate aggregation and roll-up calculations.
Definitions: Training is a vital organizational function to ensure individuals and groups
within the organization are properly indoctrinated into the culture of the organization and
qualified to accomplish assigned tasks. Consequently, the model describes the elements for
entry-level programs through continuous career development programs. See Appendix E for
definitions of common terms. Listed below are the definitions of terms unique to this section
of the model:
      •    Indoctrination: Physical and social in-processing into an organization—vision,
           mission, strategic objectives, performance measurements, administrative, and
           personnel procedures, etc.
      •    Conditioning: Physical and mental preparation ensuring cohesive, team-oriented
           results.
      •    Socialization: Exposing employees to organizational culture, expected patterns of
           behavior, ethical standards, etc.
      •    Succession Plan: A training process that prepares employees to assume higher levels
           of responsibility and prepares the organization for continuity of operations as leaders
           move up or out.
Description: The model starts at the accession element. Accession breaks down to include
the basic items that should be considered when bringing new employees into the
organization. Training is a continuous function that starts when a new hire enters the
organization and progressively continues throughout an individual’s career. The goal is to
provide a full spectrum of training policies and programs to provide specialized technical
training and leadership development. 5

4
    AR 350-1, Apr 9, 2003, para 1-6.a.b.
5
    AR 350-1, Apr 9, 2003, para 1-11.
                                                                                                  12
How individuals manage their careers within an organization and how organizations structure
career progress is an important aspect of a training program. Opportunities for education,
leadership, mentoring, and self-improvement are vital to the health of the organization.
Training programs must be established based on measurable training requirements, and
subsequent evaluations administered to determine the ability of the program to fulfill overall
mission needs. These requirements are as important for measuring individuals, as well as for
unit training.
Finally, training programs require complete and accurate policies, requirements, and
procedures necessary to determine effectiveness and analysis for future requirements.
Accurate planning and programming are required to establish training budget requirements
for personnel, equipment, and operations, and should link to published guidance, allocation,
and execution plans.
Summary: A comprehensive training program is critical to the success of any organization.
Training is directly linked to how an organization accomplishes its strategic vision and
mission. Adequate support structures sustaining the training needs of both the individual and
unit will facilitate building a stable, viable, and self-sustaining institution.




                                                                                           13
                                                                Chapter 4—Material

Purpose: To map out the key high-level elements of a Material function that should be
considered in establishing a stable, viable, and self-sustaining Material capability for a
typical organization.
Assumptions: The organization requires Material to achieve established goals, objectives,
production rates, and readiness.
   •   As the subject matter expert drills down into the model, certain aspects of Material
       may not apply to all organizations due to peculiar or unique circumstances.
   •   All modifications to the model must be coordinated with and approved by the Office
       of Primary Responsibility so that appropriate adjustments can be made to
       accommodate aggregation and roll-up calculations.
Definitions: Material refers to acquiring, maintaining, and sustaining all items necessary to
equip, operate, maintain, and support all organizational activities. Material excludes land,
buildings and facilities, and utilities, which are discussed in the Facilities section of this
model. Consequently, the model describes the elements for the introduction of material
items to the organization through final disposition. See Appendix E for definitions of
common terms. Listed below are the definitions of terms unique to this section of the model:
   •   Taxonomy: Describes the system of who maintains which items at what interval.
   •   Customer Requirements: Encourage user input, or push fielding from the central
       acquisition authority.
   •   Production Location: Efforts to encourage local procurement.
   •   Support Infrastructure: Things that allow for procured item maintenance and
       sustainment for the entire life cycle.
Description: The model details elements covering the entire life cycle of materials.
Organizations acquire or procure material necessary to accomplish stated objectives and
perform basic functions. Organization procurement officials should have an acquisition
strategy to ensure effective coordination of purchases. Adequate procurement procedures
encourage accountability, competition, and oversight. Also, a well-run organization will
only purchase items that the support infrastructure, both internal and external, can
adequately maintain and sustain.
Once acquired, the organization needs systems to maintain, repair, and sustain material.
Maintaining material requires the purchase and storage of spares and repair parts. The
organization also needs to adopt or develop a system outlining roles and responsibilities of
mechanics and technicians and a viable system of scheduled maintenance. In some cases,
complex systems will require contractual agreements with entities outside the organization
in order to properly maintain the system.
Sustainment of nonconsumable materials such as machines and other equipment requires an
accounting system for all material—equipment, spares, parts, etc. Accountability implies a
functioning supply system that addresses supply, resupply, and consumption rates. Finally,

                                                                                               14
proper accountability also requires a viable disposal process that gets rid of material no
longer needed and ensures replacement.
Summary: Efficient use, accurate accountability, and effective maintenance and
sustainment of Material are essential to the proper functioning of all organizations.
Sufficient quantities of material are critical to accomplishing objectives, while proper use
increases efficiency, saves money, and reduces waste.




                                                                                               15
                                                              Chapter 5—Leadership


Purpose: To map out the key high-level Leadership elements that should be considered in
establishing a stable, viable, and self-sustaining Leadership capability for a typical
organization.
Assumptions: The Leadership section of the Management Decision Model includes
information derived from numerous sources, to include:
    •   Air War College, Center for Strategic Leadership Studies; 6
    •   Office of Personnel Management Appendix A, “Leadership Competency
        Definitions;” 7 and
    •   U.S. Army Technical Report 1148, “Competency Based Future Leadership
        Requirements.” 8
Numerous nonmilitary examples substantiate the need for a quality leadership program.
    •   As subject matter experts drill down into the model, certain aspects of Leadership
        development may not apply to all organizations due to peculiar or unique
        circumstances.
    •   All modifications to the model should be coordinated with and approved by the
        Office of Primary Responsibility so that appropriate adjustments can be made to
        accommodate aggregation and roll-up calculations.
Definitions: The Leadership of an organization is vital to the institution’s success. Proper
selection, development, and support of leadership will contribute to the overall achievement
of an organization. Consequently, the model describes the elements for leadership selection,
professional development, and support infrastructure. See Appendix E for definitions of
common terms. Listed below are the definitions of terms unique to this section of the model:
    •   Metrics: A system of parameters or ways of quantitative assessment of a process that
        is to be measured, along with the processes to carry out such measurement. Metrics
        define what is to be measured. Metrics are usually specialized by the subject area, in
        which case they are valid only within that certain domain and cannot be directly
        benchmarked or interpreted outside it. Generic metrics, however, can be aggregated
        across subject areas or business units of an enterprise.
    •   Values Criteria: A set of distinctive spiritual, material, intellectual, and emotional
        features of society or a social group. Culture encompasses art and literature,
        lifestyles, ways of living together, value systems, traditions, and beliefs.
Description: The model starts at the selection element. Selection breaks down to consider
leadership candidates qualification standards that include education, experience,
communication skills, political/social allegiance, and core values. Once selected for a

6
  http://leadership.au.af.mil/index.htm.
7
  http://www.leadership.opm.gov/cel.cfm.
8
  http://www.au.af.mil/au/awc/awcgate/army/tr1148.pdf.
                                                                                                 16
leadership position, leaders should go through a centralized, decentralized, or external
confirmation process.
Leadership should continue to develop and mature through professional development
programs that teach leadership roles and responsibilities. Roles and responsibilities consist
of job description, assignment procedures, accountability standards, succession policy,
resource management training, and anticorruption training. Leadership programs should
also have an appraisal system that addresses policies, procedures, and metrics by which they
will be rated.
Leadership support infrastructure includes administration and communications.
Administration supports leadership through policies, procedures, and publications.
Leadership communication throughout an organization is projected through wide
dissemination of leadership philosophy and principles utilizing media options.
Summary: Key Leadership characteristics are evaluated in either a qualitative or
quantitative matrix to provide a visual depiction of the overall health of how leaders perform
and how they are developed. The listed characteristics are not the only items that may be
evaluated, and some characteristics may not be applicable for the leadership being evaluated.
The user may tailor the model by adding or removing characteristics or qualifications to fit
the leadership position being evaluated.




                                                                                            17
                                                               Chapter 6—Personnel


Purpose: To map out the key high-level Personnel (human capital) elements that should be
considered in establishing a stable, viable, and self-sustaining Personnel management
capability for a typical organization.
Assumptions: The Personnel section of the Management Decision Model applies to the
management of personnel at all levels within the organization, including those in leadership
positions.
     •   As subject matter experts drill down into the model, certain aspects of Personnel may
         not apply to all organizations due to peculiar or unique circumstances.
     •   All modifications to the model will be coordinated with and approved by the Office
         of Primary Responsibility so that appropriate adjustments can be made to
         accommodate aggregation and roll-up calculations.
Definitions: See Appendix E for definitions of common terms. Listed below are the
definitions of terms unique to this section of the Model:
     •   Vetting: The actual term means “to subject to thorough examination or evaluation.” 9
         In this section, it encompasses all forms of evaluation of prospective candidates
         beyond the standard resume and interview process.
     •   Intra-Agency Media: All forms of communications within the organization to
         disseminate information about topics of interest down to the lowest levels. Examples:
         monthly newsletters, intranet bulletin boards, e-mails, meetings, and brown bag
         lunches.
     •   Compensation Program: Program established to pay employees equitably and fairly
         and, at the same time, spend employment funds economically. It involves
         consideration of local conditions that affect recruiting and retaining qualified
         employees, equitable treatment of employees, effect of pay actions on other
         employees, and the employee’s qualifications and service history for the position
         being filled. 10 Typically, compensation program includes salary, bonuses, stock
         options, awards, and special pay. 11
     •   Employment Equity: Programs that address issues, such as diversity, counseling,
         complaints, affirmative employment, civil rights, and disabilities, to facilitate
         antidiscrimination in the hiring, development, and advancement of employees within
         the organization. 12
Description: Key to any Personnel system within an organization is the ability to develop
and implement strategies to identify, recruit, and retain a high-performance workforce.
Human capital strategy should be aligned with mission, goals, and organizational objectives
and integrated into strategic plans, performance plans, and budgets. Another standard of

9
  http://dictionary.reference.com/search?q=vetting.
10
   http://www.doi.gov/hrm/pmanager/er8f.html.
11
   http://www.jnj.com/careers/compprog.html.
12
   http://www.doi.gov/hrm/pmanager/eeo.html.
                                                                                              18
success is a results-oriented performance culture in which the organization has a diverse,
results-oriented workforce. Moreover, the organization should have a performance
management system that effectively differentiates between high and low performance, and it
should have a system that links individual, team, and unit performance to organizational
goals and desired results. 13
This section covers the personnel management of an organization and is divided into three
key areas. Accession covers the initial hiring and management of new employees in the
organization. Retention addresses the organizational programs and systems designed to
retain quality employees. Manpower management covers the specific policies, planning,
programming, budgeting, and reporting during the life cycle of the employee.
Summary: A highly efficient Personnel system includes all aspects of managing employees
from the time they are hired until they leave the organization. Sufficient strategies,
programs, systems, and procedures are essential to develop a technical, professional, and
retainable workforce.




13
     http://apps.opm.gov/HumanCapital/standards/index.cfm.
                                                                                            19
                                                                        Chapter 7—Facilities

Purpose: To map out the key high-level Facilities program elements that should be
considered in establishing a stable, viable, and self-sustaining Facilities management
capability in a typical organization.
Assumptions: A key assumption is that the organization either already owns or can acquire
(through purchase or lease) the necessary real estate to support an efficient organization.
     •   As subject matter experts drill down into the model, certain aspects of Facilities
         management may not apply to all organizations due to peculiar or unique
         circumstances.
     •   All modifications to the model will be coordinated with and approved by the Office
         of Primary Responsibility so that appropriate adjustments can be made to
         accommodate aggregation and roll-up calculations.
Definitions: See Appendix E for definitions of common terms. Listed below are the
definitions of terms unique to this section of the Model:
     •   Facilities: All real property belonging to an organization.
     •   Real Estate: Real property owned or under the control of the organization. It includes
         the land, right, title, and interest therein and improvements thereon (that is, buildings
         and utilities/networks). The land includes minerals in their natural state and standing
         timber; when removed from the land, these become personal property. Rights and
         interest include leaseholds, easements, rights-of-way, water rights, and air rights.
         Installed building equipment is considered real estate until removed. Equipment in
         place is considered personal property. 14
     •   Standards: Specific design criteria for each type of building, based on function and
         purpose.
Description: All organizations (public or private) require facilities to perform their mission.
From standard office work to production facilities or proving grounds required for testing
equipment or training personnel, the need for facilities exists. Every local, city, State, and
Federal Government organization conducts facilities management through a public works
function; therefore, this model draws from the U.S. Army Facilities Engineering Regulations
and provides basic policies and responsibilities for managing installation-level public works
activities. The MDM accounts for facilities engineering, housing, and environmental
support. The model emphasizes the need to establish policies for facilities maintenance and
repair standards. It also includes elements for designing, planning, and executing facilities
projects. 15
Facilities management has two key elements. Availability/adequacy covers the initial
assessment of the available real estate. Included in this assessment are the three aspects of
real property—land, buildings, and utilities/networks. Management covers the specific areas


14
 Army Regulation 405–90, Real Estate, Disposal of Real Estate, 10 May 1985, Glossary, Section II, Terms.
15
 Army Regulation 420–10, Facilities Engineering, Management of Installation Directorates of Public Works,
Apr 15, 1997, para 1-1.
                                                                                                       20
of operations, planning, programming, budgeting, and engineering as it applies to the
acquisition, maintenance, repair and construction of facilities.
Summary: An efficient organization must have sufficient Facilities (real property) in order
to produce quality results. Once these facilities are acquired, they must be constantly
surveyed and maintained for adequacy based on changes internal or external to the
organization.




                                                                                         21
                                            Chapter 8—Resource Management

Purpose: To map out the key high-level Resource Management elements that should be
considered in establishing a stable, viable, and self-sustaining Resource Management
capability for a typical organization.
Assumptions: The organization being evaluated uses monetary funds, property, and other
assets to achieve established goals, objectives, production rates, or readiness. These
monetary funds require a coordinated, documented system to help minimize misuse, waste,
and corruption.
   •   As the subject matter expert drills down into the model, certain aspects of Resource
       Management may not apply to all organizations due to peculiar or unique
       circumstances.
   •   All modifications to the model must be coordinated with and approved by the Office
       of Primary Responsibility so that appropriate adjustments can be made to
       accommodate aggregation and roll-up calculations.
Definitions: Resource Management is the effective control over and accountability for all
funds, property, and other assets to ensure they are safeguarded and used efficiently to fulfill
authorized purposes. Resource Management includes activities such as budgeting, costing,
managing revenues, managing property, procuring, and fiscal auditing. Consequently, the
model describes those elements necessary for the development of budgets and tracking of
money throughout the organization. See Appendix E for definitions of common terms.
Listed below are the definitions of terms unique to this section of the model:
   •   Revenues: All monetary instruments entering the organization, including profits, cash
       from sales and services, and budget authority in the case of Government
       organizations.
   •   Internal: All controls designed by the organization and those applied by the
       organization internally.
   •   External: All controls applied to the organization by external authorities, including
       limitations on the authority of management.
Description: The model details essential elements required for the management of funds.
Healthy organizations budget into the future for necessary monetary resources, accurately
account for money provided or gained from all sources, and establish fiscal controls to
prevent unauthorized use or misuse of funds.
Adequate budgets include planning and programming. An organization’s budget planning
captures the assumptions and requirements necessary to achieve program objectives.
Accounting involves the accurate recording and reporting of expenditures and revenues. A
tracking system including standards for documenting transactions and maintaining
accountability is also integral to an adequate accounting system. A sufficient accounting
system ensures accurate documentation of transactions for auditing an organization’s
obligations.


                                                                                               22
Fiscal controls are those policies and procedures that ensure management provides
reasonable assurance that operations are effective and efficient, and that financial reporting is
reliable. External controls provide limitations on management authority and verification of
financial reports. Effective internal control also helps in managing change to cope with
shifting environments and evolving demands and priorities.
Summary: Accurate budgeting and accounting for monetary assets ensures effective use of
money either generated by or provided to the organization. Sufficient fiscal controls are
necessary to minimize opportunities for waste, fraud, and abuse, and to ensure reliable
financial reporting.




                                                                                              23
                                                                             Chapter 9—Intelligence

Purpose: To map out the key high-level Intelligence elements that should be considered in
establishing a stable, viable, and self-sustaining Intelligence capability for a typical
organization.
Assumptions: A robust Intelligence program is an aspect of organizational structure that
doesn’t fit neatly into the DOTMLPF model; thereby, it requires special consideration.
     •   As subject matter experts drill down into the model, certain aspects of Intelligence
         may not apply to all organizations due to peculiar or unique circumstances.
     •   All modifications to the model will be coordinated with and approved by the Office
         of Primary Responsibility so that appropriate adjustments can be made to
         accommodate aggregation and roll-up calculations.
Definitions: Intelligence results from the collection, processing, integration, analysis,
evaluation, and interpretation of available information concerning external and internal
threats to the organization. Information and knowledge may be obtained through overt or
covert observation, investigation, analysis, or assimilation. See Appendix E for definitions
of common terms. Listed below are the definitions of terms unique to this section of the
model:
     •   Tactical: Immediate operational information using existing resources.
     •   Strategic: Tactics and types of resources to counter anticipated or actual new threats.
     •   Counterintelligence: Information gathered and activities conducted to protect
         sensitive data or persons against espionage, other intelligence activities, sabotage, or
         assassinations conducted for or on behalf of foreign powers, insurgent organizations,
         persons, or international terrorist activities. 16
Description: Intelligence can be divided into five broad categories: requirements,
collection, threats, analysis, and dissemination. Methods of collection can take many forms,
but can be categorized as technical, surveillance, imagery, human, or open source (readily
available). 17
Interpretations of data allow for integration, and ultimately, recommendations. Equally
important are release authority and safeguarding procedures, which establish control of
intelligence information. Intelligence information can be productively used to the advantage
of the organization through exploitation to allow policy makers to make informed decisions.
Summary: The primary mission of an intelligence program “is to collect, evaluate, and
disseminate [internal and external] intelligence to assist. . . in making decisions relating to
national security.” 18 A well-structured intelligence program provides vital and actionable
information to thwart threats and to confront risks posed by overt and covert actions against
the organization.



16
   AR 381-10, 1 July 1984, Appendix A.
17
   The United States Intelligence Community (In a Nutshell), http://www.intelligence.gov/ic_in_a_nutshell/index.htm.
18
   Central Intelligence Agency, Frequently Asked Questions, http://www.cia.gov/cia/public_affairs/faq.html#1.
                                                                                                                       24
                                                                      Chapter 10—Medical


Purpose: To map out the key high-level Medical elements that should be considered in
establishing a stable, viable, and self-sustaining Medical system capability for a typical
organization.
Assumptions: A Medical program doesn’t fit neatly into the DOTMLPF model; thereby, it
requires special consideration. An effective and efficient medical system is applicable to any
institution or organization, as one of many programs that signifies the organization’s concern
for the health and welfare of its employees.
     •   As subject matter experts drill down into the model, certain aspects of the Medical
         program may not apply to all organizations due to peculiar or unique circumstances.
     •   All modifications to the model will be coordinated and approved by the Office of
         Primary Responsibility so that appropriate adjustments can be made to accommodate
         aggregation and roll-up calculations.
Definitions: See Appendix E for definitions of common terms. Listed below are the
definitions of terms unique to this section of the Model:
     •   Health sciences: Those medical sciences not addressed in the first two areas of
         patient care and preventive medicine, for example, veterinary, entomology,
         occupational health, etc.
     •   Patient care: Staffing, equipment and supplies of hospitals and clinics.
     •   Preventive medicine: Social services and immunizations.
     •   Other medical programs: Addresses the health sciences and research functions.
Description: The MDM depicts the elements that should be considered to establish and
maintain a viable medical capability to enhance mission accomplishment and performance of
an organization. The medical department should provide medical services and support under
all conditions and conserve the organization’s efficiency and productivity. 19
Accomplishing the medical mission requires the following:
   • Developing and executing coordinated plans and programs to provide the best
     possible health service during normal operations and in times of natural disaster to
     eligible personnel, within available resources;
   • Establishing health standards;
   • Selecting medically fit personnel and disposition of the medically unfit;
   • Applying effective means of preventive and curative health services;
   • Executing the approved medical research, development, test, and evaluation program;
   • Applying effective means of health education and management. 20



19
   Army Regulation 40–1, Medical Services, Composition, Mission, and Functions of the Army Medical
Department, para 1-5.
20
   Ibid.
                                                                                                     25
Summary: Organizations require an effective and efficient Medical program. The overall
health and well-being of the workforce in an organization is crucial to the performance of
duties and the success of the organization.




                                                                                             26
                                                                 Chapter 11—Education


Purpose: To map out the key high level Education elements that should be considered in
establishing a stable, viable, and self-sustaining Education capability for a typical
organization.
Assumptions: An Education program is an aspect of organizational structure that doesn’t
fit neatly into the DOTMLPF model; thereby, it requires special consideration.
     •   As subject matter experts drill down into the model, certain aspects of Education may
         not apply to all organizations due to peculiar or unique circumstances.
     •   All modifications to the model will be coordinated with and approved by the Office
         of Primary Responsibility so that appropriate adjustments can be made to
         accommodate aggregation and roll-up calculations.
Definitions: See Appendix E for definitions of common terms. Listed below are the
definitions of terms unique to this section of the Model:
     •   Education: Encompasses programs associated with teaching and learning general and
         specific skills, knowledge, good judgment, and wisdom to support the organization.
         A fundamental goal of an education program is to foster the organizational culture
         and to sustain that culture from generation to generation. Career development
         training is not included in education.
Description: The MDM identifies the key elements of a self-sustaining Education program.
Every organization needs to establish and maintain a quality education program to ensure
members of the institution have basic literacy and communication skills. Without an
executable education policy, the organization can not sustain an effective and efficient
training program. The model, therefore, draws a distinction between Education and
Training.
An education program requires structure, policies, programs, and management to function
effectively. To facilitate administration of an education program, an organization must have
significant vision to carry out goals and objectives, typically under numerous constraints and
limitations. To clearly support a population, programs designed to support elementary,
secondary, and university level education require significant consideration. Planning,
programming, and budgeting are integral for overall management and to establish a
comprehensive education program. The development of governing regulations and guidance
naturally follows. 21
Summary: The philosophy behind an education process recognizes that a self-sustaining
enterprise requires an educated society. Delivering education should be a baseline policy for
all ages. The model maps the high-level elements that should be considered to establish a
credible education program.



21
  U.S. Department of Education, Overview,
http://www.ed.gov/about/overview/focus/what_pg4.html#whatdoes.

                                                                                              27
                                                              Chapter 12—Transportation

Purpose: To map out the key high-level Transportation elements that should be considered
in establishing a stable, viable, and self-sustaining Transportation capability for a typical
organization.

Assumptions: A Transportation program is an aspect of organizational structure that
doesn’t fit neatly into the DOTMLPF model; thereby, it requires special consideration.
Transportation systems are typically identified with nation-states due to the complexity and
costs of the programs and resources. However, all organizations should consider the
Transportation function for applicability.

       •   As subject matter experts drill down into the model, certain aspects of Transportation
           may not apply to all organizations due to peculiar or unique circumstances.
       •   All modifications to the model should be coordinated with and approved by the
           Office of Primary Responsibility so that appropriate adjustments can be made to
           accommodate aggregation and roll-up calculations.

Definitions: See Appendix E for definitions of common terms. Listed below are the
definitions of terms unique to this section of the Model:

       •   Transportation: as all land, water, and air systems and transportation assets necessary
           for and used in the movement of people and things across the range of operations.

Description: “A transportation program provides fast, safe, secure, efficient, accessible,
and convenient transportation systems that meet … vital national interests and enhances the
quality of life … today and into the future.” 22 Establishment and sustainment of a
comprehensive transportation program requires a national policy, regulations, and
instructions.

Typically, a commission or transportation board manages a transportation system and
establishes objectives and goals based on stated requirements and strategies. Safety and
security policies and procedures ensure reliable, dependable operations within the system.

System infrastructure requirements in any transportation system are dependent upon
available resources and capabilities, but generally include highways, rail, aviation, and
maritime modes of transport.

Summary: A reliable, safe, secure, and efficient Transportation system is a vital
requirement for any organization responsible for the movement of people, products, and
supplies. In addition to satisfying mobility requirements, a transportation system provides
lines of communication to facilitate national or organizational unity and cohesion.



22
     U.S. Department of Transportation Mission Statement, http://www.dot.gov/mission.htm.

                                                                                               28
Appendix A—CFC-A Commanding General Request Letter




                                                29
                              Appendix B—DoD IG Team-Afghanistan

Mr. William B. Morrison III        Project Lead
wmorrison@dodig.mil                703-604-9151

Lt Col Michael T. Luft, USAF       Team Lead
mluft@dodig.mil                    703-604-9114

Mr. George P. Marquardt            Senior Program Analyst
gmarquardt@dodig.mil               703-604-9159

LTC Thomas S. Lavender, USAR       IG Representative
tlavender@dodig.mil                703-604-9118

LCDR William L. Blacker, USN       IG Representative
wlblacker@dodig.mil                703-604-9113

Mr. Robert P. Goldberg             Program Analyst
rgoldberg@dodig.mil                703-604-9218




                                                              30
     Appendix C—CFC-A Deputy Commanding General Terms of
                                              Reference

                                TERMS OF REFERENCE
                                STUDY INTO THE ANA

BACKGROUND

1.     The US Government has made a substantial investment into the training of the
Afghan National Army (ANA) over the past 3 years and there has been much progress made.
The Commanding General Combined Forces Command Afghanistan (CG CFC-A) has
discussed with the Minister of Defense (MOD) the desirability of conducting a joint ‘health
check’ of the ANA, and as a result of that study, to review the Office of Military Cooperation
Afghanistan (OMC-A) and its subordinate commands. The timescale for developing a report
with recommendations was established with the suspense being, if possible, the end of June
2005. The study leader will be Major General P Gilchrist, Deputy Commanding General
CFC-A.

SCOPE

2.      The study scope is to examine all levels of command of the ANA, from the MOD
down to Kandak level to ascertain the ‘ground truth’ on the state of training, morale,
administration, procurement, logistics and leadership of the Army at each level of command,
and to make recommendations based on the findings. Armed with those indicators the study
team will then examine the role, manning, leadership, planning, training and logistic support
delivered by OMC-A and its subordinate commands, and again make recommendations.

CONSTRAINTS

3.     The methodology used will have to be relatively simple due to the timescale, but
should deliver the results required in order to enable any modification to process or
organization to be recommended. It is not intended to challenge the size or doctrinal
approach and posture of the Army or to consider defense policy in this study, except where
the conclusions recommend adjustments.

METHODOLOGY

4.     A team will be created form CFC-A, OMC-A,CJTF-76 and use will employ a visiting
DoD IG Team. The team will examine G1 to G9 staff issues at all levels of command,
including PAO, Effects and acquisition. The study team will visit each Corps Headquarters, a
Brigade Headquarters and 2 Kandaks in each Corps area. Particular attention will be paid to
command and control procedures between levels of command and the flow of Policy,
Standards and Procedures.




                                                                                           31
FOCUS AREAS

5.       The study will focus on the following areas:

G1 - Personnel.
   • Personnel policies, procedures and record keeping
   • Pay procedures
   • Desertion/absence rates
   • Leave procedures
   • Ethnic balance
   • Manning levels and structures
   • Posting and promotion policy and procedures
   • Recruiting and retention
   • Death benefits and compensation schemes
   • Spiritual care and guidance

G2 – Intelligence and Security
   • Following the DIA report
   • Examine security, vetting and counter intelligence posture
   • Intelligence systems and needs
   • Security procedures at all levels including arms and ammunition

G3 - Command and Control
   • Communications procedures and staffing
   • Planning, conduct and control of operations
   • Operational and routine reporting
   • Leader quality
   • Liaison

Training
   • Training Programs
   • Quality and relevance of entry level training
   • Specialist training
   • Quality of career development training
   • Training and qualification records

G4 - Sustainability
   • Logistic systems and procedures
   • Accountability
   • Equipment care
   • Recruiting system
   • Structures
   • Construction

G5
     •   Operational planning
     •   Organization
                                                                       32
G6
     •   Communications
     •   Command and control

G8
     •   Financial Processes
     •   Probity checks, balances and delegations

Acquisition
   • Competition policy, approvals and contract award procedures

PAO
  •      Agility, Information Operations and policy.

DELIVERABLES
6.   Taking into account planned changes:
   • Assessment of Readiness State of the ANA
        o Equipment
        o Training
        o Personnel
        o Command and Control
   • Validation of Defense Sector and ANA Structures
        o Identify Required Force Structure Changes
        o Identify areas of potential synergy across GoA Ministries
   • Assessment of OMC-A/TF Phoenix Delivery Systems
        o Roles
        o Organization
        o Staffing
        o Trainer Requirements/opportunities
   • Assess Gaps and Suggest Improvements as Appropriate




                                                                      33
                                                                                ANNEX A

                                    KEY BENEFITS

Reports over the last few months have underlined the need for a holistic assessment of the
ANA. Through this study we will gain greater clarity on the following key areas;

       a.      The level of desertions.
       b.      The need to gain an independent view of the state of training and operational
       capabilities at all levels, and determining the force effectiveness and ability to
       conduct independent operations.
       c.      Gauging leadership quality and training. Review quality of officers and their
       training. Review NCO quality and training.
       d.      Reviewing the administration of the ANA, in particular discipline, food
       contracts, personnel functions and records.
       e.      Assessing the ethnic balance, posting policy and promotion policy. Ensure
       that they are open and fair, without favor.
       f.      Determining the agility of the C3 system, the passage of information and
       orders and the LO posture.
       g.      Reviewing the equipment holdings, logistic support and equipment care.
       h.      Reviewing procurement procedures, competition policy, contract award
       procedures and checks and balances.
       i.      The review of financial procedures and probity.
       j.      The review of pay procedures, planned enhancements, and how the families of
       deployed troops receive pay; and including a review of the deployment pay policy.
       k.      Reviewing the robustness of the planning process.
       l.      The review of staffing levels, capability, and the quality of staff training.
       m.      The review of construction progress against the delivery of trained troops.
       n.      The review of ANA and ANP recruiting policies and processes, also
       considering retention and re-enlistment statistics.
       o.      The review of the procedures for recruits entering the army, from approach to
       the recruiting station to the KMTC via the Kabul Military Entrance Processing
       Station (MEPS).
       p.      Reviewing the manning at OMC-A and its subordinate commands to
       determine whether the manning balance is appropriate now and for known future
       plans such as Police training, MOI reorganization and logistic support to the police.
       q.      The review of Embedded Training Team manning requirements.
       r.      The review of MOD manning levels, ethnic balance, quality, standards,
       structure, coordination and communications.
       s.      The review of the CN posture of the ANA.
       t.      The review of CSS and CS enablers for the ANA, and of requirements for
       other operational enablers.
       u.      The review of Air Element requirement and staffing. Take initial view on the
       feasibility of a Joint helicopter Command.
       v.      The review of Intelligence requirement and capability, drawing heavily on the
       DIA report.



                                                                                         34
                                Appendix D—DOTMLPF ‘Plus’ Definitions
For the purpose of this model, we defined the DOTMLPF+ elements as shown below. The
basis for our definitions is Appendix H of the Chairman of the Joint Chiefs Manual
3170.01B, 11 May 2005, and the Department of Defense Dictionary of Military and
Associated Terms, Joint Publication 1-02. We added several elements to DOTMLPF to
expand the applicability of our model to a wider spectrum of organizations.

(1) Doctrine. Doctrine is the collection of fundamental principles that guides the operations
and functions of the organization toward common goals and objectives. Doctrine helps the
leadership establish structure, strategy, policy, and procedures to describe what the
organization desires to accomplish and how it intends to achieve its mission or function.
(2) Organization/Structure. Organization describes how the evaluated entity is structured.
It includes the division of authority, roles, and responsibilities, and defines the functionality
of subordinate elements within the organization.
(3) Training. Training is the education and preparation of individuals or groups within the
organization to ensure they have the expertise to accomplish assigned tasks. It includes
training upon entry into the organization. It also includes continuing education and skills
development during an individual’s assignment in the organization.
(4) Material. Material refers to acquiring, maintaining, and sustaining all items necessary to
equip, operate, maintain, and support all organizational activities. Material excludes land,
buildings and facilities, and utilities.
(5) Leadership. Leadership encompasses the selection, development, performance, and
assessment of those individuals exercising authority in the organization. Ethics and
communication are included as critical elements of effective leadership.
(6) Personnel. Personnel is defined as those human resource programs used within the
organization to bring qualified people in, keep them in, and manage them while they are
assigned to the organization. It includes all documentation associated with personnel actions.
(7) Facilities. Facilities are real property consisting of one or more of the following: a
building, a structure, a utility system, pavement, and underlying land. Key facilities are
selected assets of primary importance to the accomplishment of strategic objectives.
(8) Resource Management. Resource Management is the effective control over and
accountability for all funds, property, and other assets to ensure they are safeguarded and
used efficiently to fulfill authorized purposes. Resource Management includes activities such
as budgeting, costing, managing revenues, managing property, procuring, and fiscal auditing.
(9) Intelligence. Intelligence results from the collection, processing, integration, analysis,
evaluation, and interpretation of available information concerning external and internal
threats to the organization. Information and knowledge may be obtained through overt or
covert observation, investigation, analysis, or understanding.
(10) Medical. Medical refers to all services performed, provided, or arranged by the
organization to promote, improve, conserve, or restore the mental or physical well-being of
personnel. These services include, but are not limited to, patient care, medical supply,
equipment, dental, veterinary, laboratory, and optometric services.


                                                                                              35
(11) Education. Education encompasses programs associated with teaching and learning
general and specific skills, knowledge, good judgment, and wisdom to support the
organization. One of the fundamental goals of education is to convey the culture from
generation to generation. Career development training is not included in education.
Education will be a subset of training for many organizations.
(12) Transportation. Transportation is defined as all the land, water, and air routes and
transportation assets necessary for and used in the movement of organization supplies and
products across the range of operations.




                                                                                            36
                                                   Appendix E—Common Terms

Accountability: Responsibility to someone or for some activities.
Analysis: An examination of the component parts of a whole and their relations with a goal
of making an interpretation.
Assessment: (Either summative or formative) can be objective or subjective. Objective
assessment is a form of questioning which has a single correct answer. Subjective assessment
is a form of questioning which may have more than one current answer (or more than one
way of expressing the correct answer).
Assumptions: A proposition that is assumed, that is, treated within the context of a
discussion as if it were known.
Authority: One that is invested with the power, especially a government or body of
government officials, to enforce laws, exact obedience, command, determine, or judge.
Benefits: A payment made or an entitlement available either of monetary or nonmonetary
value.
Budgeting: A systematic plan for the expenditure of a usually fixed resource during a given
period.
Management: The act, manner, or practice of managing; handling; supervision; or control.
Metrics: The application of statistics and mathematical analysis to a specified field of study.
MOU/MOA: Memorandum of Understanding/Memorandum of Agreement.
Planning: An act of formulating a program for a definite course of action.
Programming: The designing, scheduling, or planning of a program.
Requirements: Definition of what potential users want a system to do and the features
necessary to fulfill a need.
Socialization: The process of learning interpersonal and interactional skills that are in
conformity with the values of one’s organization.
Standard: An acknowledged measure of comparison for quantitative or qualitative value; a
criterion.
Strategy: A long-term plan of action designed to achieve a particular goal.
Validation: The act of confirming; finding or testing the truth of something.
Value: Beliefs of a person or social group in which they have an emotional investment; A
principle, standard, or quality considered worthwhile or desirable.
Vision: The manner in which one sees or conceives of something.




                                                                                            37
                                                          EXAMPLE SUMMARY SHEET FOR THE MDM
                                                                                                                                     > 84.5% +                      (Good)            2
      OVER ALL ORGANIZATION RATING                            62%                                    71%     INTERIM RATING        50.0% - 84.5%                 (Satisfactory)       1
                                                                    10.60815648                   10.6081565                           < 50%                  (Needs Improvement)     0

     Level I Element             Weight       Level II Element                    Weight                   Level I Element       Weight                  Level II Element           Weight

     Doctrine                      1      60%                                                              Facilities              1               50%
                                            1 Authority                             2      62%                                                       1
                                            0                                                                                                        0 Availability/Adequacy          1      35%
                                              Statutory Oversight                   1      49%
                                                                                                                                                         Management                   1      64%
                                              Strategic Plan                        1      71%
                                                                                                           Resource Management     1               87%
                                              Policy                                1      57%                                                       1
                                                                                                                                                     0 Budget                         3      92%
     Organi zation / Structure     1      77%
                                            1                                                                                                            Accounting                   1      83%
                                            0 Authority                             1      100%
                                                                                                                                                         Fiscal Controls              1      75%
                                              Roles and Responsibilities            1      83%
                                                                                                           Intelligence            1               49%




                                                                                                                                                                                                   Appendix F—Management Decision Model
                                              Composition                           1      58%                                                       1
                                                                                                                                                     0 Requirements                   1      13%
                                              Functionality                         1      67%
                                                                                                                                                         Threats                      1      87%
                                              External Support                      1      75%
                                                                                                                                                         Collection                   1      47%
     Training                      4      71%
                                            1                                                                                                            Analysis                     1      42%
                                            3 Accession                             1      66%
                                                                                                                                                         Dissemination                1      55%
                                              Career Development                    1      51%
                                                                                                           Medical                 1                0%
                                              Records Management System             1      75%                                            F
                                                                                                                                          F              Patient Care                 1      0%
                                              Budget                                1      92%
                                                                                                                                                         Preventive Medicine          1      0%
     Material                      1      73%
                                            1                                                                                                            Other Medical Programs       1      0%
                                            0 Acquisition/Procurement               1      86%
                                                                                                           Education               1                0%
                                              Maintenance/Repair                    1      77%                                            F
                                                                                                                                          F              Structure                    1      0%
                                              Sustainment                           1      54%
                                                                                                                                                         Policy                       1      0%
     Leadership                    1      73%
                                            1                                                                                                            Programs                     1      0%
                                            0 Selection                             1      82%
                                                                                                                                                         Management Education         1      0%
                                              Professional Development              1      54%
                                                                                                           Transportation          1               53%
                                              Support Infrastructure                1      83%                                                       1
                                                                                                                                                     0 Structure                      1      81%
     Personnel                     3      86%
                                            1                                                                                                            Policy                       1      44%
                                            2 Accession                             1      90%
                                                                                                                                                         Programs                     1      45%
                                              Retention                             1      81%
                                                                                                                                                         Management Education         1      41%
                                              Manpower Management                   1      86%
38




                                                                                                                                                                                                                                          38
                                               EXAMPLE SHEET—DOCTRINE

                                                                                                                                    =    2   > 84.5% +         (Good)
                                                                                                                                    =    1   50.0% - 84.5%   (Satisfactory)
DOCTRINE                                                                                                                            =    0   < 50%             (Needs Improvement)

Level I Element   Weight              Level II Element      Weight                Level III Element                Weight                    Level IV Element

Doctrine            1             60%
                           3.01295471 Authority               2             62%
                                                                     7.73503015   Executive Authority                4             67%
                                                                                                                              4              Source(s) of Authority                  1
                                                                                                                                             Definition/Purpose                      1
                                                                                                                                             Limitations                             2
                                                                                                                                             Reporting Requirements
                                                                                  Legislative Authority              2             67%
                                                                                                                              4              Source(s) of Authority                  2
                                                                                                                                             Definition/Purpose                      1
                                                                                                                                             Limitations                             1
                                                                                                                                             Reporting Requirements
                                                                                  Judicial Authority                 5             50%
                                                                                                                              2              Source(s) of Authority
                                                                                                                                             Definition/Purpose                      1
                                                                                                                                             Limitations                             1
                                                                                                                                             Reporting Requirements
                                                                                  International Treaties            0.5            50%
                                                                                                                              3              Source(s) of Authority
                                                                                                                                             Definition/Purpose                      1
                                                                                                                                             Limitations                             1
                                                                                                                                             Reporting Requirements                  1
                                                                                  Inter / Intra Agency Authority     1        100%
                                                                                                                              6              Source(s) of Authority                  2
                                                                                                                                             Definition/Purpose                      2
                                                                                                                                             Limitations                             2
                                                                                                                                             Reporting Requirements
                                      Statutory Oversight     1             49%
                                                                     1.46783598   Internal Control                   1             29%
                                                                                                                            4.04             Authority
                                                                                                                                             Organization                            0
                                                                                                                                             Policies                                2
                                                                                                                                             Procedures                              1
                                                                                                                                             Training                                1
                                                                                                                                             Standards (Rules of Law)                0
                                                                                                                                             Assessment/Reporting Process            0
                                                                                                                                             Resources/Funding                       0
                                                                                  IG System                          1             43%
                                                                                                                            6.03             Authority                               2
                                                                                                                                             Organization                            0
                                                                                                                                             Policies                                1
                                                                                                                                             Procedures                              0
                                                                                                                                             Training                                1
                                                                                                                                             Standards (Rules of Law)                0
                                                                                                                                             Assessment/Reporting Process
                                                                                                                                             Resources/Funding                       2
                                                                                  Anti Corruption Process            1             75%
                                                                                                                              6              Authority
                                                                                                                                             Organization/Components                 1
                                                                                                                                             Policies                                1
                                                                                                                                             Procedures
                                                                                                                                             Training                                2
                                                                                                                                             Standards (Rules of Law)                2
                                                                                                                                             Assessment/Reporting Process

                                      Strategic Plan          1            71%
                                                                          10.01   Vision                             1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Mission                            1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Core Values                        1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Objectives                         1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Goals                              1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Performance Metrics                1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Assumptions and Constraints        1              0
                                                                                                                                             Yes / Pending / No
                                      Policy                  1            57%
                                                                          16.01   Personnel / Manpower               1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Operations                         1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Logistics                          1
                                                                                                                                             Yes / Pending / No
                                                                                  Organizational Structure           1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Medical / Health Affairs           1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Facilities Construction            1              0
                                                                                                                                             Yes / Pending / No
                                                                                  Acquisition                        1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Communications                     1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Security                           1              2
                                                                                                                                             Yes / Pending / No
                                                                                  Resource Mgmt                      1
                                                                                                                                             Yes / Pending / No
                                                                                  Education / Training               1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Legal                              1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Administrative                     1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Social                             1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Intelligence                       1              1
                                                                                                                                             Yes / Pending / No
                                                                                  Environmental                      1              1
                                                                                                                                             Yes / Pending / No




                                                                                                                                                                                         39
                       EXAMPLE SHEET—ORGANIZATION/STRUCTURE

                                                                                                                                                    =    2   > 84.5% +              (Good)
                                                                                                                                                    =    1   50.0% - 84.5%        (Satisfactory)
ORGANIZATION / STRUCTURE                                                                                                                            =    0   < 50%                  (Needs Improvement)

Level I Element            Weight                Level II Element             Weight                Level III Element              Weight                    Level IV Element

Organization / Structure     1             77%
                                    3.82841202
                                                 Authority                      1            100%
                                                                                       1.99750312   Executive Authority              1        100%
                                                                                                                                              8              Source(s) of Authority                       2
                                                                                                                                                             Definition/Purpose                           2
                                                                                                                                                             Limitations                                  2
                                                                                                                                                             Reporting Requirements                       2
                                                                                                    Legislative                      1        100%
                                                                                                                                              8              Source(s) of Authority                       2
                                                                                                                                                             Definition/Purpose                           2
                                                                                                                                                             Limitations                                  2
                                                                                                                                                             Reporting Requirements                       2
                                                 Roles and Responsibilities     1            83%
                                                                                               5    Span of Control                  1              2
                                                                                                                                                             Yes / Partial / No
                                                                                                    Chain of Command / Authority     1              1
                                                                                                                                                             Yes / Partial / No
                                                                                                    Accountability                   1              2
                                                                                                                                                             Yes / Partial / No
                                                 Composition                    1             58%
                                                                                       1.16597442   Rank                             1             50%
                                                                                                                                              2              System                                       1
                                                                                                                                                             Proper Distribution                          1
                                                                                                    Diversity                        1             67%
                                                                                                                                            4.01             Gender                                       2
                                                                                                                                                             Ethnicity                                    0
                                                                                                                                                             Proportionality                              2
                                                 Functionality                  1             67%
                                                                                        1.9954274   Organizational Culture           1             50%
                                                                                                                                              2              Appropriateness                              1
                                                                                                                                                             Adaptable                                    1
                                                                                                                                                             Flexible
                                                                                                    Mission Accomplishment           1        100%
                                                                                                                                              4              Effectiveness                                2
                                                                                                                                                             Efficiency                                   2
                                                                                                                                                             Timeliness
                                                                                                    Performance / Metrics            1             50%
                                                                                                                                              3              Standards                                    1
                                                                                                                                                             Assessment                                   1
                                                                                                                                                             Recording                                    1
                                                                                                                                                             Reporting
                                                 External Support               1             75%
                                                                                       1.49916805   Foreign                          1        100%
                                                                                                                                              6              Reliability                                  2
                                                                                                                                                             Criticality                                  2
                                                                                                                                                             Mission Impact                               2
                                                                                                    Domestic                         1             50%
                                                                                                                                            3.01             Reliability                                  0
                                                                                                                                                             Criticality                                  2
                                                                                                                                                             Mission Impact                               1




                                                                                                                                                                                                              40
                                                 EXAMPLE SHEET—TRAINING

                                                                                                                                            =    2   > 84.5% +           (Good)
                                                                                                                                            =    1   50.0% - 84.5%     (Satisfactory)
TRAINING                                                                                                                                    =    0   < 50%               (Needs Improvement)

Level I Element   Weight                Level II Element            Weight                Level III Element                Weight                    Level IV Element

Training            4             71%
                           2.83151864
                                        Accession                     1             66%
                                                                             5.24064216   Goals and Standards                1             75%
                                                                                                                                      3              End State Requirement                     1
                                                                                                                                                     Progress Assessment Process               2
                                                                                          Entry Level Training               5             67%
                                                                                                                                      4              Indoctrination                            1
                                                                                                                                                     Conditioning                              2
                                                                                                                                                     Basic Skills                              1
                                                                                          Leadership Training                1             50%
                                                                                                                                      3              Vision                                    1
                                                                                                                                                     Values                                    1
                                                                                                                                                     Formal Program                            1
                                                                                          Socialization                      1             67%
                                                                                                                                      4              Values Statements                         2
                                                                                                                                                     Behavior Standards                        1
                                                                                                                                                     Cultural Factors                          1
                                        Career Development            1             51%
                                                                             4.61850541   Continuing Education               1             50%
                                                                                                                                      2              Performance Improvement                   1
                                                                                                                                                     Skills Enhancement                        1
                                                                                          Leadership Program                 1             50%
                                                                                                                                      2              Skills Development                        1
                                                                                                                                                     Succession Plan                           1
                                                                                          Specialized/Technical Training     1             25%
                                                                                                                                    1.01             Identify Requirements                     1
                                                                                                                                                     Vocational Need                           0
                                                                                          Instructors                        1             50%
                                                                                                                                      3              Qualifications                            1
                                                                                                                                                     Selection Process                         1
                                                                                                                                                     Evaluation                                1
                                                                                          Formal Mentoring                   1             50%
                                                                                                                                      3              Qualifications                            1
                                                                                                                                                     Selection Process                         1
                                                                                                                                                     Evaluation                                1
                                                                                          Self Improvement                   1             75%
                                                                                                                                      3              Availability of Resources                 2
                                                                                                                                                     Incentive                                 1
                                                                                          Training Assessment System         1             38%
                                                                                                                                    3.01             Requirements                              1
                                                                                                                                                     Standards                                 1
                                                                                                                                                     Capability                                1
                                                                                                                                                     Reporting                                 0
                                                                                          Recurring Training Programs        1             50%
                                                                                                                                      2              Requirements                              1
                                                                                                                                                     Evaluation                                1
                                                                                          External Evaluations               1             75%
                                                                                                                                      3              Standards                                 2
                                                                                                                                                     Capabilities Report                       1
                                        Records Management System     1             75%
                                                                             1.49625935   Management System                  1             75%
                                                                                                                                      3              Effectiveness Criteria                    2
                                                                                                                                                     Implementation Procedures                 1
                                                                                          Data Analysis                      1             75%
                                                                                                                                      3              Validation                                2
                                                                                                                                                     Disposition                               1
                                        Budget                        1             92%
                                                                             1.83028286   Planning                           1             83%
                                                                                                                                      5              Personnel Costs                           1
                                                                                                                                                     Equipment Costs                           2
                                                                                                                                                     Operations and Maintenance Costs          2
                                                                                          Programming                        1        100%
                                                                                                                                      6              Guidance                                  2
                                                                                                                                                     Allocation Plan                           2
                                                                                                                                                     Execution Plan                            2




                                                                                                                                                                                                   41
                                                EXAMPLE SHEET—MATERIAL

                                                                                                                                            =    2   > 84.5% +            (Good)
                                                                                                                                            =    1   50.0% - 84.5%      (Satisfactory)
MATERIAL                                                                                                                                    =    0   < 50%                (Needs Improvement)

Level I Element   Weight                Level II Element          Weight                Level III Element                  Weight                    Level IV Element

Material            1             73%
                           2.17508826
                                        Acquisition/Procurement     1             86%
                                                                           3.45298505   Capability Requirements Analysis     1             75%
                                                                                                                                      3              Customer Requirements                      2
                                                                                                                                                     Methodology (DOTML-PF)                     1
                                                                                        Acquisition Strategy                 1        100%
                                                                                                                                     10              Statements of Work                         2
                                                                                                                                                     Life Cycle Costs estimate                  2
                                                                                                                                                     Market Research                            2
                                                                                                                                                     Performance / Functionality                2
                                                                                                                                                     Production Location                        2
                                                                                        Procurement Procedures               1             83%
                                                                                                                                      5              Purchase Authority                         2
                                                                                                                                                     Source Selection                           1
                                                                                                                                                     Contract Administration                    2
                                                                                        Support Infrastructure               1             87%
                                                                                                                                      7              Material Aspects                           2
                                                                                                                                                     Training Base                              1
                                                                                                                                                     Technical / Education Base                 2
                                                                                                                                                     Infrastructure Networks                    2
                                        Maintenance/Repair          1             77%
                                                                           3.07675072   Spares                               1             75%
                                                                                                                                      3              Stockage Level                             1
                                                                                                                                                     Location                                   2
                                                                                        Repair Parts                         1             67%
                                                                                                                                      4              Ordering                                   2
                                                                                                                                                     Storing                                    1
                                                                                                                                                     Returning                                  1
                                                                                        Contractual Agreements               1        100%
                                                                                                                                      4              Source selection                           2
                                                                                                                                                     Oversight                                  2
                                                                                        Maintenance Organization/System      1             67%
                                                                                                                                      4              Taxonomy                                   1
                                                                                                                                                     Technicians                                1
                                                                                                                                                     Manuals / Instructions                     2
                                        Sustainment                 1             54%
                                                                           1.62796297   Accountability System                1             75%
                                                                                                                                      6              Inventories                                2
                                                                                                                                                     Responsibility Assignments                 2
                                                                                                                                                     Durable Item Management                    1
                                                                                                                                                     Consumables Management                     1
                                                                                        Supply System                        1             87%
                                                                                                                                      7              Item Classification System                 2
                                                                                                                                                     Consumption Rate Analysis                  1
                                                                                                                                                     Initial Issue                              2
                                                                                                                                                     Resupply                                   2
                                                                                        Disposal Process                     1             0%
                                                                                                                                    0.03             Obsolescence / Expiration                  0
                                                                                                                                                     Replacement                                0
                                                                                                                                                     Discard                                    0




                                                                                                                                                                                                    42
                                            EXAMPLE SHEET—LEADERSHIP

                                                                                                                                       =    2   > 84.5% +           (Good)
                                                                                                                                       =    1   50.0% - 84.5%     (Satisfactory)
LEADERSHIP                                                                                                                             =    0   < 50%               (Needs Improvement)

Level I Element   Weight                Level II Element           Weight                Level III Element            Weight                    Level IV Element

Leadership          1             73%
                           2.18963879
                                        Selection                    1             82%
                                                                            1.63114755   Qualifications                 1             80%
                                                                                                                                 8              Education Requirements                    2
                                                                                                                                                Experience Prerequisites                  1
                                                                                                                                                Communication Skills                      2
                                                                                                                                                Political / Social Allegiance             2
                                                                                                                                                Values Criteria                           1
                                                                                         Confirmation                   1             83%
                                                                                                                                 5              Centralized Process                       2
                                                                                                                                                Decentralized Process                     2
                                                                                                                                                External Procedures                       1
                                        Professional Development     1             54%
                                                                            1.08423651   Roles and Responsibilities     1             25%
                                                                                                                               3.03             Job Description                           0
                                                                                                                                                Assignment Procedures                     0
                                                                                                                                                Accountability Standards                  0
                                                                                                                                                Succession Policy                         1
                                                                                                                                                Resource Management Training              1
                                                                                                                                                Anti-Corruption Training                  1
                                                                                         Appraisal System               1             83%
                                                                                                                                 5              Policies                                  2
                                                                                                                                                Procedures                                1
                                                                                                                                                Metrics                                   2
                                        Support Infrastructure       1             83%
                                                                            1.66389351   Administration                 1             83%
                                                                                                                                 5              Policies                                  2
                                                                                                                                                Procedures                                1
                                                                                                                                                Publications                              2
                                                                                         Communications                 1             83%
                                                                                                                                 5              Philosophy                                2
                                                                                                                                                Principles                                2
                                                                                                                                                Media Options                             1




                                                                                                                                                                                              43
                                             EXAMPLE SHEET—PERSONNEL

                                                                                                                                    =    2   > 84.5% +            (Good)
                                                                                                                                    =    1   50.0% - 84.5%      (Satisfactory)
PERSONNEL                                                                                                                           =    0   < 50%                (Needs Improvement)

Level I Element   Weight                Level II Element      Weight                Level III Element             Weight                     Level IV Element

Personnel           3             86%
                           2.57447881
                                        Accession               1             90%
                                                                       1.79795236   Hiring Process                  1         100%
                                                                                                                              8              Job Analysis/Description                   2
                                                                                                                                             Qualification Requirements                 2
                                                                                                                                             Recruiting
                                                                                                                                             Interview
                                                                                                                                             Vetting                                    2
                                                                                                                                             Selection                                  2
                                                                                    Program Management              1              80%
                                                                                                                              8              Policies                                   2
                                                                                                                                             Laws and Regulations                       1
                                                                                                                                             Metrics                                    1
                                                                                                                                             Tracking                                   2
                                                                                                                                             Reporting                                  2
                                        Retention               1             81%
                                                                       1.62203729   Employee Communications         1              75%
                                                                                                                              3              Orientation Program                        1
                                                                                                                                             Performance Appraisal System
                                                                                                                                             Mentoring/Coaching
                                                                                                                                             Rewards & Recognition Program              2
                                                                                    Benefits/Incentives             1              87%
                                                                                                                              7              Training & Development Program             2
                                                                                                                                             Compensation Program                       2
                                                                                                                                             Morale Wefare Programs                     2
                                                                                                                                             Retirement / Pension System                1
                                        Manpower Management     1             86%
                                                                       4.32241992   Policies                        1              79%
                                                                                                                           11.01             Employment Equity                          2
                                                                                                                                             Classification                             2
                                                                                                                                             Assignment                                 2
                                                                                                                                             Payroll                                    2
                                                                                                                                             Documentation                              0
                                                                                                                                             Conflict Resolution                        1
                                                                                                                                             Mobilization                               2
                                                                                    Planning                        1              87%
                                                                                                                              7              Assumptions                                1
                                                                                                                                             Requirements                               2
                                                                                                                                             Strategy                                   2
                                                                                                                                             Approval Process                           2
                                                                                    Programming                     1         100%
                                                                                                                              8              Guidance                                   2
                                                                                                                                             Analysis                                   2
                                                                                                                                             Program Proposals                          2
                                                                                                                                             Resource Allocation                        2
                                                                                    Budget                          1         100%
                                                                                                                              6              Formulation                                2
                                                                                                                                             Justification                              2
                                                                                                                                             Execution Plan                             2
                                                                                    Program Performance Reports     1              67%
                                                                                                                              4              Office of Primary Responsibility           2
                                                                                                                                             Document Management                        1
                                                                                                                                             Metrics                                    1




                                                                                                                                                                                            44
                                              EXAMPLE SHEET—FACILITIES

                                                                                                                            =    2   > 84.5% +          (Good)
                                                                                                                            =    1   50.0% - 84.5%    (Satisfactory)
FACILITIES                                                                                                                  =    0   < 50%              (Needs Improvement)

Level I Element   Weight                Level II Element        Weight                Level III Element    Weight                    Level IV Element

Facilities          1             50%
                           0.99212867
                                        Availability/Adequacy     1             35%
                                                                         1.04466547   Land                   1             33%
                                                                                                                    2.01             Quantity                                 1
                                                                                                                                     Quality                                  1
                                                                                                                                     Location                                 0
                                                                                      Buildings              1             38%
                                                                                                                    3.01             Quantity                                 1
                                                                                                                                     Quality                                  1
                                                                                                                                     Location                                 0
                                                                                                                                     Standards                                1
                                                                                      Utilities/Networks     1             33%
                                                                                                                    2.01             Quantity                                 1
                                                                                                                                     Quality                                  1
                                                                                                                                     Source                                   0
                                        Management                1             64%
                                                                         3.21953422   Operations             1             50%
                                                                                                                    6.02             Waste Management Program                 0
                                                                                                                                     Fire and Emergency Services              0
                                                                                                                                     Maintenance                              2
                                                                                                                                     Repair                                   2
                                                                                                                                     Renovation                               1
                                                                                                                                     Construction                             1
                                                                                      Planning               1        100%
                                                                                                                     14              Assumptions                              2
                                                                                                                                     Requirements                             2
                                                                                                                                     Strategy                                 2
                                                                                                                                     Approval Process                         2
                                                                                                                                     Standards                                2
                                                                                                                                     Space Management                         2
                                                                                                                                     Master Planning                          2
                                                                                      Programming            1             60%
                                                                                                                      6              Future Years Development Program         1
                                                                                                                                     Guidance                                 1
                                                                                                                                     Analysis                                 1
                                                                                                                                     Program Proposals                        2
                                                                                                                                     Resource Allocation                      1
                                                                                      Budgeting              1             83%
                                                                                                                      5              Formulation                              2
                                                                                                                                     Justification                            2
                                                                                                                                     Execution Plan                           1
                                                                                      Engineering            1             29%
                                                                                                                    4.03             Studies                                  1
                                                                                                                                     Env, Natural, Cultural Resource Mgmt.    0
                                                                                                                                     Design                                   0
                                                                                                                                     Architecture                             0
                                                                                                                                     Contract Administration                  1
                                                                                                                                     Construction Management                  1
                                                                                                                                     Plans and Specifications                 1




                                                                                                                                                                                  45
                       EXAMPLE SHEET—RESOURCE MANAGEMENT

                                                                                                                          =    2   > 84.5% +            (Good)
                                                                                                                          =    1   50.0% - 84.5%      (Satisfactory)
RESOURCE MANAGEMENT                                                                                                       =    0   < 50%                (Needs Improvement)

Level I Element       Weight                Level II Element   Weight                Level III Element   Weight                    Level IV Element

Resource Management     1             87%
                               4.32709416
                                            Budget               3             92%
                                                                        1.83069832   Planning              1             83%
                                                                                                                    5              Assumptions                                2
                                                                                                                                   Requirements                               1
                                                                                                                                   Strategy                                   2
                                                                                                                                   Approval Process
                                                                                     Programming           1        100%
                                                                                                                    8              Guidance                                   2
                                                                                                                                   Analysis                                   2
                                                                                                                                   Program Proposals                          2
                                            Accounting           1             83%                                                 Resource Allocation                        2
                                                                        2.49376559   Expenditures          1             75%
                                                                                                                    3              Recording                                  2
                                                                                                                                   Reporting                                  1
                                                                                     Revenues              1        100%
                                                                                                                    4              Recording                                  2
                                                                                                                                   Reporting                                  2
                                                                                     Tracking Systems      1             75%
                                                                                                                    3              Standards                                  2
                                            Fiscal Controls      1             75%                                                 Accountability                             1
                                                                        1.49958299   Internal              1        100%
                                                                                                                    6              Record-keeping                             2
                                                                                                                                   Asset Management                           2
                                                                                                                                   Transaction Process                        2
                                                                                     External              1             50%
                                                                                                                  2.01             Assessment                                 2
                                                                                                                                   Limitation of Authority                    0




                                                                                                                                                                                  46
                                        EXAMPLE SHEET—INTELLIGENCE

                                                                                                                         =    2   > 84.5% +            (Good)
                                                                                                                         =    1   50.0% - 84.5%      (Satisfactory)
INTELLIGENCE                                                                                                             =    0   < 50%                (Needs Improvement)

Level I Element   Weight                Level II Element   Weight                Level III Element      Weight                    Level IV Element

Intelligence        1             49%
                           2.44673305
                                        Requirements         1             13%
                                                                      0.256862   Procedures               1             25%
                                                                                                                 1.01             Tactical                                   1
                                                                                                                                  Strategic                                  0
                                                                                 Counter Intelligence     1             0%
                                                                                                                 0.03             Monitoring                                 0
                                                                                                                                  Dis-information                            0
                                        Threats              1             87%                                                    Detention Process                          0
                                                                    3.49417637   Domestic                 3        100%
                                                                                                                   6              Economic                                   2
                                                                                                                                  Military                                   2
                                                                                                                                  Political                                  2
                                                                                 Foregn                   1             50%
                                                                                                                   3              Economic                                   1
                                                                                                                                  Military                                   1
                                                                                                                                  Political                                  1
                                        Collection           1             47%
                                                                    1.42037933   Authority                1        100%
                                                                                                                   6              Executive                                  2
                                                                                                                                  Judicial                                   2
                                                                                                                                  Legislative                                2
                                                                                 Methods                  1             17%
                                                                                                                 2.04             Signals                                    0
                                                                                                                                  Technical                                  0
                                                                                                                                  Surveillance                               1
                                                                                                                                  Imagery                                    0
                                                                                                                                  Human                                      0
                                                                                                                                  Open Source                                1
                                                                                 Planning                 1             25%
                                                                                                                 2.02             Assumptions                                1
                                                                                                                                  Requirements                               1
                                                                                                                                  Strategy                                   0
                                                                                                                                  Approval Process                           0
                                        Analysis             1             42%
                                                                    0.83361065   Interpretation           1             50%
                                                                                                                   3              Facts                                      1
                                                                                                                                  Related Information                        1
                                                                                                                                  Supporting Information                     1
                                                                                 Integration              1             33%
                                                                                                                 2.01             Scenario Development                       0
                                                                                                                                  Validation                                 1
                                        Dissemination        1             55%                                                    Recommendation                             1
                                                                    1.66347857   Release Authority        1             50%
                                                                                                                   2              Internal                                   1
                                                                                                                                  External                                   1
                                                                                 Safeguarding             1             50%
                                                                                                                   3              Physical                                   1
                                                                                                                                  Electronic                                 1
                                                                                                                                  Investigation/Response                     1
                                                                                 Exploitation Actions     1             67%
                                                                                                                   4              Dis-information                            1
                                                                                                                                  Deception                                  1
                                                                                                                                  Disruption                                 2




                                                                                                                                                                                 47
                                          EXAMPLE SHEET—MEDICAL

                                                                                                           =    2   > 84.5% +          (Good)
                                                                                                           =    1   50.0% - 84.5%    (Satisfactory)
MEDICAL                                                                                                    =    0   < 50%              (Needs Improvement)

Level I Element   Weight        Level II Element         Weight        Level III Element      Weight                Level IV Element

Medical             1      0%
                            0
                                Patient Care               1      0%
                                                                   0   Staff                    1          0%
                                                                                                       0            Training
                                                                                                                    Quantity
                                                                                                                    Experience
                                                                       Hospitals / Clinics      1          0%
                                                                                                       0            Distribution
                                                                                                                    Capabilities
                                                                                                                    Capacity
                                                                       Supplies / Equipment     1          0%
                                                                                                       0            Ordering
                                                                                                                    Storing
                                                                                                                    Tracking
                                Preventive Medicine        1      0%
                                                                   0   Social Services          1          0%
                                                                                                       0            Counseling
                                                                                                                    Risk Communication
                                                                                                                    Availability
                                                                                                                    Strategic Plan
                                                                                                                    Public Education
                                                                       Immunization             1          0%
                                                                                                       0            Identification
                                                                                                                    Research / Development
                                                                                                                    Distribution Plan
                                Other Medical Programs     1      0%
                                                                   0   Health Sciences          1          0%
                                                                                                       0            Availability
                                                                                                                    Qualifications
                                                                                                                    Standards
                                                                                                                    Staff
                                                                       Research                 1          0%
                                                                                                       0            Funding
                                                                                                                    Facilities
                                                                                                                    Long Term Plan




                                                                                                                                                             48
                                            EXAMPLE SHEET—EDUCATION

                                                                                                                =    2   > 84.5% +            (Good)
                                                                                                                =    1   50.0% - 84.5%      (Satisfactory)
EDUCATION                                                                                                       =    0   < 50%                (Needs Improvement)

Level I Element   Weight        Level II Element       Weight        Level III Element             Weight                Level IV Element

Education           1      0%
                            0
                                Structure                1      0%
                                                                 0   Roles and Responsibilities      1          0%
                                                                                                            0            Functions/Purpose
                                                                                                                         Qualifications
                                                                     Composition                     1          0%
                                                                                                            0            Boards/Commissions
                                                                                                                         Functions/Purpose
                                                                                                                         Qualifications/Appointments
                                                                                                                         Procedures
                                Policy                   1      0%
                                                                 0   Authority                       1          0%
                                                                                                            0            Legislation
                                                                                                                         Limitations
                                                                     Regulations/Publications        1          0%
                                                                                                            0            Office of Primary Responsibility
                                                                                                                         Coordination Process
                                                                                                                         Content
                                                                     Guidance                        1          0%
                                                                                                            0            MOUs/MOAs
                                                                                                                         Instructions
                                                                     Financial Assistance/Aid        1          0%
                                                                                                            0            Policies
                                                                                                                         Procedures
                                                                                                                         Records Management
                                                                                                                         Program Measurements
                                Programs                 1      0%
                                                                 0   Elementary                      1          0%
                                                                                                            0            Strategic Plan
                                                                                                                         Policies
                                                                                                                         Procedures
                                                                                                                         Records Management
                                                                                                                         Program Measurements
                                                                     Secondary                       1          0%
                                                                                                            0            Strategic Plan
                                                                                                                         Policies
                                                                                                                         Procedures
                                                                                                                         Records Management
                                                                                                                         Program Measurements
                                                                     University                      1          0%
                                                                                                            0            Strategic Plan
                                                                                                                         Policies
                                                                                                                         Procedures
                                                                                                                         Records Management
                                                                                                                         Program Measurements

                                Management Education     1      0%
                                                                 0   Strategic Plan                  1          0%
                                                                                                            0            Vision
                                                                                                                         Mission
                                                                                                                         Core values
                                                                                                                         Objectives
                                                                                                                         Goals
                                                                                                                         Performance Metrics
                                                                                                                         Assumptions and Constraints
                                                                     Planning                        1          0%
                                                                                                            0            Assumptions
                                                                                                                         Strategy
                                                                                                                         Requirements
                                                                                                                         Approval Process
                                                                     Programming                     1          0%
                                                                                                            0            Guidance
                                                                                                                         Analysis
                                                                                                                         Program Proposals
                                                                                                                         Resource Allocation
                                                                     Budget                          1          0%
                                                                                                            0            Formulation
                                                                                                                         Justification
                                                                                                                         Execution Plan
                                                                     Program Performance Reports     1          0%
                                                                                                            0            Office of Primary Responsibility
                                                                                                                         Document Management
                                                                                                                         Metrics




                                                                                                                                                                    49
                                EXAMPLE SHEET—TRANSPORTATION

                                                                                                                                             =    2   > 84.5% +            (Good)
                                                                                                                                             =    1   50.0% - 84.5%      (Satisfactory)
TRANSPORTATION                                                                                                                               =    0   < 50%                (Needs Improvement)

Level I Element   Weight                Level II Element       Weight                Level III Element                      Weight                    Level IV Element

Transportation      1             53%
                           2.11258754
                                        Structure                1             81%
                                                                        1.62203729   Roles and Responsibilities               1             75%
                                                                                                                                       3              Functions/Purpose                          1
                                                                                                                                                      Qualifications                             2
                                                                                     Composition                              1             87%
                                                                                                                                       7              Boards/Commissions                         1
                                                                                                                                                      Functions/Purpose                          2
                                                                                                                                                      Qualifications/Appointments                2
                                                                                                                                                      Procedures                                 2
                                        Policy                   1             44%
                                                                        1.32945919   Legislation                              1             67%
                                                                                                                                       4              Source of Authority                        1
                                                                                                                                                      Limitations                                1
                                                                                                                                                      Reporting Requirements                     2

                                                                                     Regulations/Publications                 1             50%
                                                                                                                                       3              Office of Primary Responsibility           1
                                                                                                                                                      Coordination Process                       1
                                                                                                                                                      Content                                    1
                                                                                     Guidance                                 1             50%
                                                                                                                                       1              MOUs/MOAs                                  1
                                                                                                                                                      Instructions
                                        Programs                 1             45%
                                                                        1.33569104   Transportation System Infrastructure     1             33%
                                                                                                                                     2.01             Strategic Plan                             1
                                                                                                                                                      Highway/Roads                              0
                                                                                                                                                      Rail
                                                                                                                                                      Aviation                                   1
                                                                                                                                                      Maritime
                                                                                     Safety Standards                         1             25%
                                                                                                                                     2.02             Policies                                   1
                                                                                                                                                      Administration                             1
                                                                                                                                                      Procedures                                 0
                                                                                                                                                      Metrics                                    0
                                                                                     Security Standards                       1             75%
                                                                                                                                       6              Policies                                   2
                                                                                                                                                      Administration                             1
                                                                                                                                                      Procedures                                 2
                                                                                                                                                      Metrics                                    1

                                        Management Education     1             41%
                                                                         2.0659274   Strategic Plan                           1             57%
                                                                                                                                     8.01             Vision                                     1
                                                                                                                                                      Mission                                    1
                                                                                                                                                      Core values                                1
                                                                                                                                                      Objectives                                 2
                                                                                                                                                      Goals                                      2
                                                                                                                                                      Performance Metrics                        0
                                                                                                                                                      Assumptions and Constraints                1
                                                                                     Planning                                 1        100%
                                                                                                                                       2              Assumptions                                2
                                                                                                                                                      Strategy
                                                                                                                                                      Requirements
                                                                                                                                                      Approval Process
                                                                                     Programming                              1             0%
                                                                                                                                       0              Guidance
                                                                                                                                                      Analysis
                                                                                                                                                      Program Proposals
                                                                                                                                                      Resource Allocation
                                                                                     Budget                                   1             0%
                                                                                                                                       0              Formulation
                                                                                                                                                      Justification
                                                                                                                                                      Execution Plan
                                                                                     Program Performance Reports              1             50%
                                                                                                                                       3              Office of Primary Responsibility           1
                                                                                                                                                      Document Management                        1
                                                                                                                                                      Metrics                                    1




                                                                                                                                                                                                     50
                                                           Appendix G—Instructions

         Instructions on Using the Management Decision Model
Step 1. Starting the Management Decision Model.

Note: When you start the Excel ® program, you must first set the macro security level to
medium (See figures 1 and 2)

                                  Figure 1.




                            Click Tools, Macro,
                            then Security Level




                                                                                           51
                               Figure 2.




                                                      Choose
                                                      Medium
                                                      Security Level




Open the file. To start the Management Decision Model, open Excel ® file labeled
“Mgmt. Decision Model.xls.” Open the file by clicking on the tool bar {File} then {Open}. Then
use the scroll bar to locate “Mgmt Decision Model.xls.” Figures 3 through 6 illustrate the steps
in opening the Excel file called “Mgmt Decision Model.”

                            Figure 3.




                       Click File




                                                                                             52
          Figure 4.




Click
Open




        Figure 5.




                    2. Choose
                    DVD/CD




   1. Click My
   Computer




                                53
                              Figure 6.




                                  Click on
                                  Mgmt
                                  Decision
                                  Model




Note: When prompted whether to enable macros enter {enable macros}

Step 2. Navigating around the Management Decision Model.

Components of the Management Decision Model. Now that you have opened the “Mgmt
Decision Model” you can now navigate around the model. The management decision model
consists of 12 different workbooks. The first workbook is a summary sheet labeled “Summary.”
The following 11 workbooks evaluate each of the main elements, which include:

    1. Doctrine
    2. Organizational Structure
    3. Training
    4. Material
    5. Leadership
    6. Personnel
    7. Facilities
    8. Resource Management
    9. Intelligence
   10. Medical
   11. Education




                                                                                          54
Figure 7 shows the Management Decision Model “Summary” sheet with the Doctrine section
completed.

                                             Figure 7.

                                                                          Note: You can
                                                                          click either place
                                                                          to navigate back
                                                                          to the worksheet
                                                                          for data entry.




                   This is the main summary that pulls
                   data from the other 11 tabs. Click
                   each of the other 11 tabs to see
                   detail.




Note: The user can click on any of the tabs or elements on the screen to go directly to the
worksheet to enter data.


Step 3. Populating the Management Decision Model

   Data Entry. To enter data in the model, enter either a “0” (red), or “1” (Yellow), or “2” “for
   green, in the source cells of the model. Figure 9 shows where the user can enter the data in
   the source cells.

   •   If the element you are evaluating needs improvement enter “0.” This key stroke will
       automatically enter a red-filled cell and a value of zero.
   •   If the element you are evaluating is satisfactory enter a “1.” This key stroke will
       automatically enter a yellow-filled cell and also a value of 1.
   •   If the element you are evaluating is in good shape then enter a “2.” Again, this will
       automatically enter green-filled cell and a value of 2.
   •   If you want to clear a cell, enter {delete}.

As you populate the source cells, the formula cells will automatically populate based on the
entries you made.

                                                                                               55
The users will only be able to enter data in the source cell. All other cells are protected and
cannot have data entered. The workbooks that require data entry in source cells are as follows:
Doctrine, Organizational Structure, Training, Material, Leadership, Personnel, Facilities,
Resource Management, Intelligence, Medical, and Education.

Weighting the Elements. The users can adjust the weight of the elements by editing the weight
of 1 (the default weight) to a different number. The weight will automatically calculate in the
“Summary Sheet.” Figure 8 illustrates the use of the weights.
                                            Figure 8.




        Adjust the
        weights to give
        one element
        more emphasis
        than another.




                                                                                              56
Figure 9 shows where the formula cells and source cells are located.
                                            Figure 9.




           These cells
           are automatically                       Only enter
           populated                               data in
           by formulas.                            source cells.




                                                                       57
To see how the data flowed to the “Summary,” click to the “Summary” workbook. Figure 10
shows the “Summary” workbook after the user entered data the in the Doctrine workbook.

                                            Figure 10.




                                                           This box shows the
          This box shows                                   rating when the
          the overall rating                               source cells are not
          of all the                                       all completed.
          elements.




Step 4. Understanding the Parameters of the Management Decision Model.

We have designed the management control model to give an overall rating. As you enter data in
the source cells, you will see the percentages change in the formula cells and the colors will
change from red to yellow to green as the percentages become higher. For example:

   •   when formula cells show a percentage of 0 to 49, the cell will be filled red, which
       indicates the element still needs improvement;

   •   when the formula in the cell shows a percentage of 50 to 84.5, the cell will be filled
       yellow, which means the element is satisfactory; and

   •   when the formula in the cell shows a percentage of above 84.5, the cell will be
       filled green, which indicates the element is in good condition.




                                                                                                58
Logic of the Management Decision Model.

   •   Users enter source data in the data entry fields on right-hand side of the spreadsheet.
   •   Data are entered in terms of “0,” “1,” or “2.” The spreadsheet reads each number as
       “alphanumeric” and uses an “if then” statement to convert the number to an actual
       number.
   •   The formulas located at the first, second, and third level use a formula that calculates the
       average to arrive at an overall score for each category.
   •   The spreadsheet pulls all first and second level scores into a Summary Schedule labeled
       “Summary.”
   •   The Summary Schedule shows an overall score which measures how the organization has
       done based on each category, whether complete or not. The “Interim Rating” shows how
       the organization has done based on only categories completed.
   •   In order to protect the integrity of the Management Decision Model, each formula field or
       text field is protected so the users can only enter information into the appropriate fields.




                                                                                                59
Appendix H—Management Decision Model Briefing




                                           60
Appendix H—Management Decision Model Briefing




                                           61
Appendix H—Management Decision Model Briefing




                                           62
Appendix H—Management Decision Model Briefing




                                           63
Appendix H—Management Decision Model Briefing




                                           64
Appendix H—Management Decision Model Briefing




                                           65
Appendix H—Management Decision Model Briefing




                                           66
                                                           Appendix I—Stakeholders
Doctrine: Staff Judge Advocate/All

Organization: J3/J1/J5

Training: J3/J5/All

Material: J4/J7

Leadership: J3/Deputy Commanding General

Personnel: J1/ Staff Judge Advocate

Facilities: J7/Chief of Staff

Resource Management: J8

Intelligence: J2/J3/J5

Medical: Surgeon/J1

Education: N/A

Transportation: J7/J4
______________________________________________

J1:   Personnel                       J6:   Communications
J2:   Intelligence                    J7:   Engineer
J3:   Operations and Planning         J8:   Programs/Comptroller
J4:   Logistics                       J9:   Civil Affairs
J5:   Plans and Policy




                                                                                67
THE MISSION OF THE OIG DoD
The office of the Inspector General of the Department of Defense was established by Congress
as one of the “independent and objective units [within listed ‘establishments,’ including the
Department of Defense] to conduct and supervise audits and investigations relating to programs
and operations of those establishments.” As the principal advisor to the Secretary of Defense in
all Inspector General matters, the Inspector General serves as an extension of “the eyes, ears, and
conscience” of the Secretary. In support of the mission of the Department of Defense, the Office
of the Inspector General endeavors to:

   •   “Provide leadership … to promote economy, efficiency and effectiveness;”
   •   Prevent and detect “fraud, waste, and abuse;”
   •   “Provide policy direction for audits and investigations;”
   •   “Provide a means for keeping the Secretary of Defense and the Congress fully and
       currently informed about problems and deficiencies;” and
   •   “Give particular regard to the activities of the internal audit, inspection, and investigative
       units of the military departments with a view toward avoiding duplication and ensuring
       effective coordination and cooperation.”


ADDITIONAL REPORT COPIES
Contact us by phone, fax, or e-mail:
 Inspections & Evaluations Directorate, Deputy Inspector General for Inspections & Policy
 COM: (703) 604-8956 (DSN 664-8956)
 FAX: (703) 604-9769
 E-Mail: crystalfocus@dodig.osd.mil
 Electronic version available at: http://www.dodig.mil/Inspections/IE/Reports.htm




                                                                                                   68
Page Intentionally Left Blank




                                69
